<html>
<title> - STRENGTHENING MINORITY SERVING INSTITUTIONS: BEST PRACTICES AND INNOVATIONS FOR STUDENT SUCCESS</title>
<body><pre>[Senate Hearing 113-835]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 113-835

    STRENGTHENING MINORITY SERVING INSTITUTIONS: BEST PRACTICES AND 
                    INNOVATIONS FOR STUDENT SUCCESS

=======================================================================

                                HEARING

                                OF THE

                    COMMITTEE ON HEALTH, EDUCATION,
                          LABOR, AND PENSIONS

                          UNITED STATES SENATE

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                                   ON

EXAMINING STRENGTHENING MINORITY SERVING INSTITUTIONS, FOCUSING ON THE 
           BEST PRACTICES AND INNOVATIONS FOR STUDENT SUCCESS

                               __________

                         TUESDAY, MAY 13, 2014

                               __________

 Printed for the use of the Committee on Health, Education, Labor, and 
                                Pensions
                                
                          
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]                          
                                

      Available via the World Wide Web: http://www.gpo.gov/fdsys/
      
      
                    U.S. GOVERNMENT PUBLISHING OFFICE
22-613 PDF                 WASHINGTON : 2017
_______________________________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="dfb8afb09fbcaaacabb7bab3aff1bcb0b2f1">[email&#160;protected]</a>  



          COMMITTEE ON HEALTH, EDUCATION, LABOR, AND PENSIONS

                       TOM HARKIN, Iowa, Chairman

BARBARA A. MIKULSKI, Maryland		LAMAR ALEXANDER, Tennessee	
PATTY MURRAY, Washington		MICHAEL B. ENZI, Wyoming
BERNARD SANDERS (I), Vermont	        RICHARD BURR, North Carolina
ROBERT P. CASEY, JR., Pennsylvania	JOHNNY ISAKSON, Georgia
KAY R. HAGAN, North Carolina		RAND PAUL, Kentucky
AL FRANKEN, Minnesota			ORRIN G. HATCH, Utah
MICHAEL F. BENNET, Colorado		PAT ROBERTS, Kansas
SHELDON WHITEHOUSE, Rhode Island	LISA MURKOWSKI, Alaska
TAMMY BALDWIN, Wisconsin		MARK KIRK, Illinois
CHRISTOPHER S. MURPHY, Connecticut	 TIM SCOTT, South Carolina
ELIZABETH WARREN, Massachusetts
                                  

                      Derek Miller, Staff Director

        Lauren McFerran, Deputy Staff Director and Chief Counsel

               David P. Cleary, Republican Staff Director

                                  (ii)

  
                            C O N T E N T S

                               __________

                               STATEMENTS

                         TUESDAY, MAY 13, 2014

                                                                   Page

                           Committee Members

Hagan, Hon. Kay R., a U.S. Senator from the State of North 
  Carolina, opening statement....................................     1
Alexander, Hon. Lamar, a U.S. Senator from the State of 
  Tennessee, statement...........................................     2
Paul, Hon. Rand, a U.S. Senator from the State of Kentucky, 
  opening statement..............................................     3
Murray, Hon. Patty, a U.S. Senator from the State of Washington..     4
Casey, Hon. Robert P., Jr., a U.S. Senator from the State of 
  Pennsylvania...................................................     5
Warren, Hon. Elizabeth, a U.S. Senator from the State of 
  Massachusetts..................................................    43
Burr, Hon. Richard, a U.S. Senator from the State of North 
  Carolina.......................................................    45
Scott, Hon. Tom, a U.S. Senator from the State of South Carolina.    51

                               Witnesses

Gasman, Marybeth, Ph.D., Professor of Higher Education and 
  Director of the Center for Minority-Serving Institutions at the 
  University of Pennsylvania, Philadelphia, PA...................     7
    Prepared statement...........................................     9
Lomax, Michael L., Ph.D., President and CEO of the United Negro 
  College Fund, Washington, DC...................................    13
    Prepared statement...........................................    14
Oakley, Elroy Ortiz, B.A., M.B.A., President of Long Beach City 
  College, Long Beach, CA........................................    21
    Prepared statement...........................................    23
DeSousa, D. Jason, Ed.D., Assistant Vice Chancellor of Student 
  Retention, Fayetteville State University, Fayetteville, NC.....    29
    Prepared statement...........................................    30
Bassett, John, Ph.D., President of Heritage University, 
  Toppenish, MA..................................................    33
    Prepared statement...........................................    35

                          ADDITIONAL MATERIAL

Statements, articles, publications, letters, etc.:
    Dene K. Thomas, Ph.D., President, Fort Lewis College, 
      Durango, CO................................................    57
    Johnny C. Taylor, Jr., President & CEO, Thurgood Marshall 
      College Fund (TMCF)........................................    61

                                 (iii)

  

 
    STRENGTHENING MINORITY SERVING INSTITUTIONS: BEST PRACTICES AND 
                    INNOVATIONS FOR STUDENT SUCCESS

                              ----------                              


                         TUESDAY, MAY 13, 2014

                                       U.S. Senate,
       Committee on Health, Education, Labor, and Pensions,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10 a.m., in room 
SD-430, Dirksen Senate Office Building, Hon. Kay Hagan 
presiding.
    Present: Senators Hagan, Murray, Casey, Warren, Alexander, 
Paul, Burr, and Scott.

                   Opening Statement of Senator Hagan

    Senator Hagan. The Senate Committee on Health, Education, 
Labor, and Pensions will now come to order. Today's hearing is 
titled Strengthening Minority Serving Institutions: Best 
Practices and Innovations for Student Success. I want to thank 
all of our witnesses for coming today from all over the 
country. It's truly a pleasure having you here, and I look 
forward to hearing your testimony.
    I want to thank Senator Paul, who will be here soon, for 
serving as the Ranking Member today and for all of the work he 
and his staff have done for this hearing.
    Senator Alexander, thank you for being here.
    Senator Alexander. Thank you.
    Senator Hagan. This marks the ninth hearing that the HELP 
Committee has convened in advance of the Higher Education Act 
reauthorization. This morning, we are here to discuss the 
unique challenges facing our minority serving institutions and 
to learn about programs and support to help facilitate student 
success. I'm very excited to be able to hold a hearing on this 
topic, as I have been a strong supporter of minority serving 
institutions since before I came to the U.S. Senate.
    My State of North Carolina is home to 10 historically black 
colleges and universities, or HBCUs. I have visited many of 
these campuses across the State, and I have seen first-hand the 
great work that they are doing to prepare students for the 
world ahead.
    Last year, I hosted a summit with chancellors and 
presidents from North Carolina's HBCUs to discuss their unique 
challenges and ways we could strengthen the schools. It was an 
informative and productive conversation, and I'll discuss some 
of the ideas that came as a result of that meeting a little 
later.
    While I'm very familiar with HBCUs because of their strong 
presence in North Carolina, I'm excited to be discussing all 
minority serving institutions. Today's conversation on the role 
these institutions play in our higher education system could 
not have come at a better time.
    According to the 2012 U.S. census, it's estimated that by 
2050, the United States will have no clear racial or ethnic 
majority. All of our institutions will soon be looking toward 
these institutions that we have here today to learn how to best 
serve their increasingly diverse populations. Minority serving 
institutions vary in mission, diversity, and history, but they 
are all connected to the complex racial and ethnic histories of 
the United States.
    These institutions have a long history of helping students 
succeed who may not have otherwise gone to college. We must be 
committed to providing the best educational opportunities for 
all students, and we must ensure that they have the support 
they need to access and to graduate from college.
    To accomplish this goal, it is essential that we invest in, 
and support the work of, our minority serving institutions. 
Together, the MSIs enroll 2.3 million students, including 
black, Hispanic, Native American, Asian American, and Pacific 
Islander American students.
    Collectively, MSIs represent a rich cohort of schools, 
including our HBCUs, our predominantly black institutions, our 
Hispanic serving institutions, American Indian tribal 
controlled colleges and universities, Native American serving 
non-tribal institutions, Alaska Native, and Native Hawaiian 
serving institutions, and Asian American and Native American 
Pacific Islander serving institutions.
    The MSIs serve a disproportionate amount of first-
generation, low-income students. The greatest strength of these 
institutions lies in their extensive experience working with 
and serving under-represented students and the communities in 
which they are located.
    As we work to increase college completion rates and close 
the educational achievement gaps in this country, we must be 
focused on better meeting the needs of underserved populations 
of students. To help us understand the importance of MSIs and 
the students they serve, we're going to hear today from a group 
of distinguished panelists.
    You will share with us your stories and insights about the 
challenges facing your institutions and discuss the innovative 
strategies that your schools are employing to meet the needs of 
this diverse student population. I ask that you keep your oral 
statements to less than 5 minutes. I thank you for your written 
statements which I have read and which have been submitted for 
the record.
    Senator Paul, I'm sure, will be joining us.
    Senator Alexander, do you have any comments that you would 
like to make?

                     Statement of Senator Alexander

    Senator Alexander. Let me just thank you for holding the 
hearing. Senator Paul is expected before long, and I'm looking 
forward to the testimony.
    Tennessee has a rich history of historically black 
institutions. One of them is Lane College, and one of my 
favorite stories is one that Alex Haley used to tell about his 
father, Simon P. Haley, who, in his parents' words, was wasted. 
In other words, he wasn't required to be a sharecropper. They 
let him go on to North Carolina AT&T, and he met a man in the 
summer who paid for this scholarship. He was in the first class 
of African Americans to graduate from Cornell University.
    He went back to Lane College to teach and raised four 
children, one a teacher; one an architect; one George Haley, 
who was required to sit by himself at the University of 
Arkansas in law school because he was black and later became an 
ambassador; and then the fourth child, who Simon P. Haley 
thought wasn't going to amount to anything. So he took him down 
and put him in the Coast Guard, and that was Alex Haley. So the 
historically black colleges have had a great role here, and I'm 
delighted to be here.
    Senator Paul is our ranking Republican member, and if it's 
all right, Madam Chairman, if he could make his opening 
statement, and I would reserve any other comment until later.
    Senator Hagan. Senator Alexander, I appreciate your comment 
on North Carolina A&T. That's one of our HBCUs in North 
Carolina, and it happens to be in the city where I live, in 
Greensboro. It's a great university.
    Senator Paul.

                   Opening Statement of Senator Paul

    Senator Paul. Thank you, Senator Hagan and Senator 
Alexander, for allowing me to be the Ranking Member today. I 
get an unusual promotion to do this, but I appreciate the 
opportunity.
    Kentucky is famous for a lot of both good things and bad 
things that happened in education over time. We're proud of our 
historically black colleges, Kentucky State. We're proud of the 
fact that Berea College was one of the first integrated 
colleges in the South. We're not so proud of the fact that 
after about 50 years of being integrated, they passed a law in 
the Kentucky State Legislature banning integration, which 
continued to be the law until, I believe, Brown v. The Board.
    But Kentucky has essentially been a microcosm of both good 
and bad things happening. Kentucky State University is our main 
historic black college, and the president has been Dr. Sias, 
who has been the president for the last 10 years. She is 
retiring, and I'd like to take this opportunity to congratulate 
her on a great term and being Kentucky State's first female 
public university president.
    Kentucky State has had several famous graduates. I'll 
mention a few. Marion Kelly was the first Undersecretary of the 
Department of Labor under President George Herbert Walker Bush. 
Ersa Hines Poston was the first African American to head the 
U.S. Civil Service Commission, and Whitney M. Young, a 
graduate, was a famous civil rights leader and head of the 
National Urban League.
    Also in Kentucky in the 19th century, we had a university 
by the name of State University, which was one of the first 
universities to educate African Americans when there were no 
other opportunities. It has recently been resurrected and 
rechartered and reaccredited, thanks really to the leadership 
of Dr. Kevin Cosby in Louisville, and it's been a great asset 
to rejuvenating part of our town of Louisville.
    One of its famous graduates was William Warley, who, I 
think, really has been underappreciated in history. But there 
was a case in 1917, Buchanan v. Warley, which was one of the 
most famous Supreme Court cases where we overturned Jim Crow 
housing segregation laws. This was way back in 1917. The 
problem still persisted for a long time. The Supreme Court 
actually did the right thing, though, in 1917, and William 
Warley was a famous Republican and founder of the NAACP and 
also led this court case as one of the first NAACP trial cases 
that they fought in the early days.
    One of the things I've noticed as I've traveled around the 
country, meeting with African American leaders in each city 
that I go to, is that Morehouse grads are everywhere. Anybody a 
Morehouse grad today? I laughingly call them the Morehouse 
Mafia because they're everywhere. But a good friend of mine, 
Elroy Sailor, has introduced me to a lot of their grads. He 
graduated from Morehouse and now is a partner and co-founder 
and CEO of Watts Partners here in DC.
    In my travels, I've met many Morehouse grads. Nate Ford has 
become a friend. He's a Morehouse grad and vice president of 
Energy Partners and former director of engineering for the city 
of Detroit. Ashley Bell is a Morehouse grad who is now a 
candidate for commissioner for Hall County, GA, and is a 
candidate for the State board of education in Georgia--all 
Morehouse grads.
    So there's some great success stories out there, and I get 
tired sometimes of hearing all the bad stories. I'm glad and I 
hope some of what we'll hear today are some of the good stories 
and the success stories that we're having, both with education 
and with individual success.
    I think part of the success, though, we have to--and 
Senator Alexander has been a leader in this--we have to think 
about how we educate people, not only at the college level, but 
getting people to college and getting them ready. I think one 
of the real answers is through charter schools and through 
school choice. I think if we're able to do that, I think 
there's much more potential that we can find for everyone.
    I want to thank Senator Hagan for convening this hearing 
and for allowing me to participate, and I thank the panel for 
attending.
    Senator Hagan. Thank you, Senator Paul. I'm so appreciative 
that we continue to work on these issues on the HELP Committee 
on a bipartisan basis.
    Now to introduce our witnesses.
    Senator Murray, would you like to introduce Dr. Bassett?

                      Statement of Senator Murray

    Senator Murray. Thank you very much to Senators Hagan and 
Paul for holding a hearing talking about how we can strengthen 
and support our minority serving institutions to make sure 
their students are able to succeed. We all know the economic 
returns on investing in education. College graduates tend to 
earn more and have lower unemployment rates than their less-
educated peers.
    But disadvantaged, first-generation, low-income students 
face significant challenges accessing and completing 
postsecondary education. Children from well-off families are 
more likely to earn a college degree than children from other 
economic backgrounds. And higher education is still 
unattainable for far too many families, especially under-
represented minorities, which is why this hearing is so 
important.
    I'm so excited to be here today to introduce my colleagues 
to Heritage University and its president, John Bassett. 
Heritage University is a very unique institution. It's located 
on the Yakama Indian Reservation in my home State of 
Washington. Heritage is the successor to Fort Wright College 
which was established in 1907 by Catholic nuns.
    Years later, two American Indian women approached Fort 
Wright College, wanting to expand educational and training 
opportunities for their preschool teachers, and their dream 
eventually became a reality when Fort Wright College closed its 
doors and became Heritage College in 1982. Its initial 
enrollment was 85 students, and its first president was a 
Catholic nun, Sister Kathleen Ross.
    The university has grown considerably over the past 30 
years, and today Heritage University offers everything from 
certificates to master's degrees. It has an open enrollment 
policy and opens its doors to students from other community 
colleges by offering online courses. Nearly 80 percent of 
Heritage students are Pell eligible, 75 percent are women, and 
over 50 percent are over the age of 25.
    Almost all of their students are first-generation college 
students. Heritage University also serves a very diverse 
population. Over 50 percent of its students are Hispanic, and 
10 percent are Native American.
    As chair of the Senate Budget Committee, I know an educated 
workforce is critical for our long-term economic and fiscal 
outlook. The United States once led the world in having the 
highest percentage of college graduates. Today we rank 12th. If 
we want to remain globally competitive and expand our college 
access and completion rates, we should support the education 
goals of under-represented minorities, the fastest growing U.S. 
demographic, and we should partner with minority serving 
institutions like Heritage University.
    Despite its growth, a few things about Heritage University 
have not changed. It is still opening its doors to all 
students. It still serves the students, the community, and the 
State of Washington, and it still operates an early learning 
center.
    Thank you, John, for making this trip to the other 
Washington to share your successes about Heritage University. 
We look forward to all of your testimony today, and I'm sorry 
that I have to chair a Budget Committee and won't be able to be 
here. But we certainly will be following and working with all 
of you.
    Thank you very much.
    Senator Hagan. Thank you, Senator Murray. And I did learn 
this morning that Dr. Bassett spent 9 years at NC State 
University in Raleigh, NC. So we'll take claim to that, too.
    Senator Casey, if you could introduce Dr. Marybeth Gasman, 
please.

                       Statement of Senator Casey

    Senator Casey. Madam Chair, thank you. Ranking Member Paul, 
thank you, and thanks to the members of the panel who are here 
for your testimony and for the information and testimony you 
will provide regarding best practices at a lot of great 
institutions.
    I have the privilege as a Senator representing Pennsylvania 
to introduce Dr. Marybeth Gasman. Dr. Gasman serves as a 
Professor of Higher Education at the Graduate School of 
Education at the University of Pennsylvania. She is also 
director of the Penn Center on Minority Serving Institutions, 
which is focused on gathering research and data to assess best 
practices, innovation, and ideas related to minority serving 
institutions.
    In 2006, Dr. Gasman received the Penn Graduate School of 
Education Excellence in Teaching Award, and we commend you for 
that. She has also been a leading voice on minority serving 
institutions and has published on the topic extensively, having 
written or edited 18 books--I wish I could say I've done that--
18 books and contributed to top peer review journals in her 
field. Dr. Gasman serves on the Board of Trustees at Paul Quinn 
College, a historically black college in Dallas, TX, and on the 
Advisory Board of the United Negro College Fund's Frederick D. 
Patterson Research Center.
    She received her bachelor of art's degree at Saint Norbert 
College and her master's of science and doctorate from Indiana 
University. I look forward to her testimony, and I am grateful 
that she is here today.
    Thank you.
    Senator Hagan. Thank you, Senator Casey.
    Next, we have Dr. Lomax, president and CEO of the United 
Negro College Fund. Under Dr. Lomax's leadership, UNCF has 
raised $1.5 billion and has helped more than 92,000 students 
earn college degrees and launch careers. Annually, the United 
Negro College Fund's work enables 60,000 students to go to 
college with UNCF scholarships and attend its 37-member 
historically black colleges and universities.
    Dr. Lomax, thank you very much for all of the great work 
that you have done and are continuing to do with the UNCF.
    Following Dr. Lomax, we will hear from Mr. Oakley, 
president of Long Beach City College. Eloy Ortiz Oakley was 
appointed as the superintendent-president of the Long Beach 
Community College district in 2007. Since he started at Long 
Beach Community College, he has forged innovative partnerships 
with schools districts, universities, and Goldman Sachs to 
improve student success on the campus.
    Our next witness is from my home State of North Carolina. 
Dr. DeSousa is the assistant vice chancellor of student 
retention at Fayetteville State University.
    Dr. DeSousa, you have the distinct pleasure today of 
testifying in front of the committee with two Senators from 
North Carolina.
    Senator Burr, would you like to welcome our witness?
    Senator Burr. Senator Hagan, thank you.
    Jason, I welcome you, as I do all the witnesses that are 
here today. Let me just say that North Carolina represents the 
largest pool of HBCUs in the country with 11.
    Dr. Bassett, I'm not sure how we lost you, but we'll get 
you back eventually, I'm sure.
    This hearing is important to our State and, more 
importantly, to our country and to the students that benefit 
from it. Let me say this, Senator Hagan, that Dr. DeSousa has 
quite a record every place he's been. But when we look for 
things to model, we look for people with quantitative data that 
proves that what they're doing works.
    By every score, as it relates to retention, GPA, everything 
at Fayetteville State, the programs that he oversees, the 
programs that he has put in place, performance counts. And 
we've seen GPAs go up, we've seen retention go up, and we've 
seen the hiring of those graduates go up.
    Congratulations. We've got something to learn, and I urge 
my colleagues to listen to what they've done at Fayetteville 
State.
    Thank you.
    Senator Hagan. Thank you, Senator Burr.
    And thank you, Dr. DeSousa.
    We're going to begin with Dr. Gasman for our testimony. And 
once again, please limit your remarks to approximately 5 
minutes. Once you have concluded with your remarks, we will 
begin the question and answer portion of this hearing.
    Dr. Gasman.

   STATEMENT OF MARYBETH GASMAN, Ph.D., PROFESSOR OF HIGHER 
   EDUCATION AND DIRECTOR OF THE CENTER FOR MINORITY-SERVING 
 INSTITUTIONS AT THE UNIVERSITY OF PENNSYLVANIA, PHILADELPHIA, 
                               PA

    Ms. Gasman. Thank you for having me today. I appreciate it. 
What I'm going to do is just give a quick overview of minority 
serving institutions in general, and then I'm going to talk 
about three areas, and that will be the STEM area, men of 
color, and also teacher education.
    Minority serving institutions emerged in response to a 
history of inequity, lack of minority people's access to 
majority institutions, and significant demographic changes 
which are continuing to change in our country. So as a result, 
they are educating a really unique niche of students in the 
Nation. As we've heard, they serve a disproportionate amount of 
low-income and students of color.
    I did want to point out a few things that they are 
particularly good at. They boast very diverse faculties and 
staffs, much more diverse than the majority of institutions 
across the Nation. They provide environments that have a 
significant impact on student learning, and they cultivate 
future leadership.
    They also offer role models of similar racial and ethnic 
backgrounds for students, which research has proven to be 
instrumental in student success. And they provide programs of 
study that challenge students and make up for the deficiencies 
that happen at the K through 12 level. An investment in these 
institutions moves us all forward.
    There are roughly 599 minority serving institutions, 
depending on how you count them, in the United States, and they 
educate 20 percent of all undergraduates. That's a pretty 
significant percentage. Over 50 percent of MSI students receive 
Pell grants, and if you look at HBCUs, in particular, that goes 
up to 84 percent. If you look at tribal colleges, that goes up 
to 74 percent. The tuition at these institutions is 50 percent 
lower than at majority institutions.
    I want to move to the STEM area. Research tells us that we 
need a million more STEM workers in order to be competitive on 
a global scale. Minority serving institutions can help us, 
because they disproportionately prepare students in STEM. If 
you look at the top 20 institutions that award STEM degrees, 
for example, to Asian and Pacific Islander students, seven of 
these institutions are what are called AANAPISIs, Asian 
American and Pacific Islander serving institutions.
    Ten HSIs, Hispanic serving institutions, are among the top 
20 institutions awarding STEM degrees to Latinos. If we look 
among HBCUs in the top 20, we find 10 HBCUs awarding the most 
degrees to blacks and African Americans. So they are hugely 
significant in the STEM area.
    As of late, we've heard a lot about President Obama's My 
Brother's Keeper initiative. I think that we all, hopefully, 
care about the future of men of color. But they are 
disproportionately at risk in the United States. But if you 
look at minority serving institutions, they are doing the 
lion's share of work with men of color, and I don't think that 
people realize it.
    Over 36 percent of men of color who are enrolled full-time 
are at minority serving institutions. Nearly 50 percent of men 
of color enrolled part-time are at minority serving 
institutions. Keep in mind that minority serving institutions 
only make up 7.8 percent of our colleges and universities. They 
are disproportionately educating men of color. They are also 
disproportionately graduating men of color.
    The last area I want to focus on is teacher education. One 
of the things that we know is that our teaching force is not 
diverse, but our student body is, and it's becoming more and 
more diverse. If you look at the census projections for 2050, 
you see that there's a large increase with the country becoming 
majority-minority. So it's very, very important that we have a 
teaching force that reflects this growing diversity.
    MSIs produce 11 percent of all teaching degrees. But if you 
look a little bit deeper, what you see is that they are 
accounting for 53.5 percent of all bachelor's degrees in 
teaching that are going to Latinos, that they are producing 
over half of the degrees for Asian Americans, that they are 
producing nearly a third for African Americans. They are having 
a significant impact, and we have some really wonderful models 
in that area.
    The last thing that I'd like to say is that I made five 
recommendations, and I'm not going to go over them right now. 
But I would hope that you would ask questions related to my 
recommendations around supporting fundraising infrastructure at 
MSIs--I think that's incredibly important--around the 
collection of data that actually shows the value of MSIs--I 
think that Jason's work really exemplifies that--and also 
around an investment in teacher education. I think those are 
three of the most important recommendations that I made.
    I look forward to the conversation. Thank you.
    [The prepared statement of Ms. Gasman follows:]
              Prepared Statement of Marybeth Gasman, Ph.D.
           overview of minority serving institutions (msig4s)
    Minority Serving Institutions emerged in response to a history of 
inequity, lack of minority people's access to majority institutions, 
and significant demographic changes in the country. Now an integral 
part of American higher education, MSIs--specifically Historically 
Black Colleges and Universities (HBCUs), Tribal Colleges and 
Universities (TCUs), Hispanic Serving Institutions (HSIs), and Asian 
American and Native American Pacific Islander Serving Institutions 
(AANAPISIs)--have carved out a unique niche in the Nation: serving the 
needs of low-income and under-represented students of color. These 
institutions boast diverse faculties and staffs, provide environments 
that significantly enhance student learning and cultivate leadership 
skills, offer role models of various racial and ethnic backgrounds, 
provide programs of study that challenge students, address deficiencies 
resulting from inadequate preparation in primary and secondary school, 
and prepare students to succeed in the workforce and in graduate and 
professional education. Because MSIs enroll a substantial share of 
minority students, many of whom might not otherwise attend college, the 
continuous development and success of these institutions is critical 
for realizing our Nation's higher education and workforce goals and for 
the benefit of American society overall. MSIs play vital roles for the 
Nation's economy, especially with respect to elevating the workforce 
prospects of disadvantaged populations and reducing the under-
representation of minorities and disadvantaged people in graduate and 
professional schools and the careers that require post-baccalaureate 
education and training. By virtue of their Federal legislation, MSIs 
enroll a largely disproportionate population of students of color. If 
the Federal Government seeks to widen educational access to this 
population, they should increase the Nation's investment in these 
institutions.\1\
            minority serving institutions by the numbers \2\
599 Minority Serving Institutions

    <bullet> 34 TCUs
    <bullet> 105 HBCUs
    <bullet> 315 HSIs
    <bullet> 145 AANAPISIs

    <bullet> 3.6 million undergraduates are enrolled in MSIs--20 
percent of all undergraduate students.
    <bullet> Over 50 percent of all MSI students receive Pell Grants.
    <bullet> Tuition at MSIs is on average 50 percent lower than 
majority institutions.
          individual msi sector descriptions and contributions
Tribal Colleges and Universities
    The 34 colleges and universities that are regular members of the 
American Indian Higher Education Consortium are spread across 13 States 
and include 13 4-year and 21 2-year colleges. With nearly 30,000 
students enrolled, TCUs have grown significantly since the first tribal 
college, Dine College in Arizona, opened its doors (under the name 
Navajo Community College) over four decades ago. Predominantly public 
institutions (over 75 percent), TCUs vary in enrollments from under 100 
to nearly 3,000 students. Most TCUs are located on reservations: among 
the 34 TCUs are four urban or suburban campuses, three campuses located 
in distant or remote towns, and 27 rural campuses. With their roots in 
Native American movements for self-determination, TCUs were established 
to provide educational opportunities for a local tribe(s) and expand a 
network of regional higher education opportunities for Indians and non-
Indians alike. TCUs serve as places where students find the support and 
social capital they need to get degrees that lead to careers. TCUs have 
also focused considerable educational resources on the survival and 
development of socially and economically marginalized communities, and 
these institutions have helped maintain and invigorate tribal languages 
and cultures while at the same time developing curricula that speak to 
the experiences and backgrounds of Native Americans.\3\
Hispanic Serving Institutions
    Colleges and universities that serve large numbers of Hispanics 
date to the founding of the University of Puerto Rico (1903). In the 
1960s and 1970s, drawing on the example of the African American civil 
rights movement and Historically Black Colleges and Universities 
(HBCUs), Latino student and community activists advocated changes in 
admissions policies and founded grassroots Hispanic colleges. Boricua 
College (1968), Hostos Community College (1969), and National Hispanic 
University (1981) are living legacies of community action. Leaders of 
de facto Hispanic Serving Institutions founded the Hispanic Association 
of Colleges and Universities (1986) and coined the phrase ``Hispanic 
Serving Institution.'' This name became official Federal policy in 
1992, and since the 2008 amendment of the Higher Education Act, 
``Hispanic Serving Institution'' came to designate any accredited and 
degree-granting public or private nonprofit institution with an 
undergraduate Hispanic full-time equivalent student enrollment of 25 
percent or higher coupled with substantial enrollment of low-income 
students. In the absence of a formal Federal list of HSIs, the name is 
generally applied to institutions that meet the Federal institutional 
and enrollment criteria. Based on these criteria, 315 institutions in 
the 50 States, Puerto Rico, and the District of Columbia qualified as 
HSIs in 2012. Scattered across 15 States and all institutional sectors, 
these institutions--just over 6 percent of all degree-granting 
institutions--enrolled almost four million undergraduates, including 
one quarter of all minority undergraduates in higher education in the 
United States, and nearly one-half of Hispanic undergraduates. 
Predominantly public (70 percent) and 2-year (49 percent) institutions, 
HSIs also count among their numbers 10 research universities and more 
than 50 master's degree institutions. As a group, these institutions 
play a critical role in making college accessible and starting Hispanic 
students on the path to degrees. HSIs are some of the most diverse 
institutions in the United States, serving as critical points of access 
to technology, information, and public space for communities with few 
such resources.\4\
Historically Black Colleges and Universities
    HBCUs were officially defined in the 1965 Higher Education Act as a 
``college or university that was established prior to 1964, whose 
principal mission was, and is, the education of black Americans.'' Born 
out of segregation and spread across 20 States, the District of 
Columbia, and the U.S. Virgin Islands, these 105 institutions have 
played a critical role in providing education to Black Americans since 
the founding of Cheney University in 1837. In 2011 HBCUs made up 2 
percent of the degree granting title IV institutions and enrolled 
nearly 346,338, students--including 1.6 percent of all undergraduate 
students in the United States, 3.7 percent of total minority 
undergraduates, .3 percent of White undergraduates, and 11 percent of 
Black undergraduates. HBCUs get students, especially Black students, to 
degrees, and they do this at the same rate as majority institutions but 
with less funding. HBCUs have long graduated a disproportionate 
percentage of the Black students who earn bachelor's degrees and who go 
on to graduate or professional schools. In 2012, HBCUs accounted for 
nearly 18 percent of bachelor's degrees awarded to Black students. 
HBCUs not only guide students in attaining the benefits of a first 
college degree (income, employment) but also contribute to students' 
momentum toward further education and the professions. But HBCUs do 
more than produce degrees: HBCUs contribute to their students'--
especially their Black students'--psychosocial adjustments to college 
and career as well as to their cultural awareness, self-confidence, and 
social capital.\5\
Asian American and Native American Pacific Islander Serving 
        Institutions
    In 1960 the Asian American and Pacific Islander (AAPI) population 
was less than one million, but it has nearly doubled in size every 
decade since then, changing the face of America and subsequently 
American higher education. This rapid growth is the result of 
immigration patterns, and these patterns have also led to an increased 
presence of the AAPI population on college campuses across the Nation. 
As a result, a small group of institutions now identify--through a 
Federal designation and funding program--as Asian American and Native 
American Pacific Islander Serving Institutions (AANAPISIs). In 2009, 
the Congressional Research Service determined that 116 institutions met 
the requirements of the Federal designation. However, there are 145 
eligible institutions in 2014; the numbers are growing quickly. Ten 
percent of these institutions' student populations are low-income Asian 
Americans or Pacific Islanders. Although the model minority myth 
perpetuates the false belief that all Asian Americans are academically 
advanced, AAPI students are in reality quite diverse and have needs 
that are similar to other under-represented racial and ethnic 
populations. There are 48 different ethnicities among the AAPI 
population, and these individuals speak more than 300 languages. Of 
note, the most poverty stricken of the AAPI groups in terms of 
socioeconomic status are the Hmong (38 percent live below the poverty 
line), Samoans, (20 percent live in poverty), and Filipinos (6 percent 
live below the poverty line). Still finding their identity, AANAPISIs 
are already unearthing the activist spirit within AAPI populations, 
creating pathways to graduate school for low-income AAPIs, providing 
them with mentors, and contributing to a Pan-Asian outlook that 
empowers the larger AAPI community.\6\
                  areas of disproportionate msi impact
MSIs and Production of Science, Technology, Engineering, & Math (STEM) 
        Degrees \7\
    Seventy-six percent of scientists and engineers with a bachelor's 
degree in the United States are White. If the Nation is to maintain its 
legacy of innovation in science and technology, we should look to MSIs 
to address the racial and ethnic disparities in STEM education, as 
diversity leads to innovation. Between 2006-10, many MSIs have been 
among the top 20 academic institutions that award science and 
engineering degrees to racial minority graduates.

    <bullet> Of the top 20 institutions that award science and 
engineering degrees to Asians or Pacific Islanders, seven identify as 
AANAPISIs. These include large, regional universities, such as San Jose 
State University, which is located in the California Bay Area, and the 
University of Hawaii at Manoa.
    <bullet> Ten HSIs are among the top 20 institutions that award 
science and engineering degrees to Hispanics/Latinos. Most of these 
institutions are located in California, Texas, and Puerto Rico.
    <bullet> Ten HBCUs are among the top 20 institutions that award 
science and engineering degrees to Blacks/African Americans. These 
institutions vary in size and public and private status, and include 
institutions such as Alabama A&M University and Hampton University, 
which is located in Virginia.
    <bullet> Of the top 20 institutions that award science and 
engineering degrees to Native Americans, only one TCU--Haskell Indian 
Nations University--is included. Considering that most TCUs are 
community colleges, with few awarding degrees beyond the associate 
level, this is not alarming.
           minority serving institutions and men of color \8\
    According to the Department of Education, data indicate that boys 
and men of color are disproportionately at risk. There are large 
disparities in preparation for boys and young men of color at all 
levels. Moreover, a disproportionate number of Black and Latino men are 
unemployed or in the criminal justice system. These factors contribute 
to the undermining of families and local communities. Last, as a result 
of these circumstances, men of color are more likely to be the victims 
of violent crimes. Minority Serving Institutions can and do play a 
large role in countering these statistics and changing the lives of men 
of color. Consider these data:

    <bullet> Over 36 percent of men of color with full-time college 
enrollment are found at Minority Serving Institutions.
    <bullet> Nearly half (48.6 percent) of men of color with part-time 
college enrollment are found at Minority Serving Institutions.
    <bullet> Of the 196,110 bachelors degrees conferred to men of 
color, 24 percent (n = 58,657) are awarded by MSIs.
    <bullet> Twenty-two percent (n = 50,829) of men of color with 
associate degrees earned by them at Minority Serving Institutions.
    <bullet> MSIs represent less than 8 percent of all postsecondary 
institutions in the Nation.
        minority serving institutions and teacher education \9\
    Between July 1, 2011 and June 30, 2012, there were 108,054 
bachelor's degrees in education conferred in the United States. Of 
these 11,588 were conferred by MSIs (11 percent). Of note, MSIs account 
for 53.5 percent of all education bachelor's conferred to Latinos, over 
half of education degrees for Native Hawaiians and Pacific Islanders 
(54 percent), nearly a third for Blacks (32 percent) as well as over a 
third for Asians (35 percent). Across MSIs, the institutions within 
each sector that confer the most teaching degrees are Oglala Lakota 
College (TCU), the University of Texas, El Paso (HSI), Jackson State 
University (HBCU), and California State University-Fullerton 
(AANAPISI).
 recommendations for empowering minority serving institutions and low-
                        income students of color
    1. Colleges and universities with strong endowments and alumni 
giving thrive and are able to support students in more comprehensive 
ways (e.g., institutional aid and student support services). 
Investments at the Federal level in MSIs should focus on building 
fundraising infrastructure in order to ensure long-term stability 
rather than short-term fixes.\10\
    2. Forty-six percent of MSIs are community colleges that enroll a 
largely disproportionate population of part-time students of color. 
Increasing investments in MSIs affects not only racial minority 
students, but also minorities who are also considered non-traditional--
over the age of 25, working full-time and/or have family dependents for 
which to care.\11\
    3. Evidence suggests that the interventions, funded through MSI 
Federal legislation, actually work in improving student outcomes. In 
order for more students to reap the benefits of these interventions, 
more funding is needed to bring them up to scale, using exemplary 
programs as models. Exemplary models include math shame interventions 
at Chief Dull Knife College, peer mentoring in science at Morehouse 
College, computer-assisted learning at El Paso Community College, and 
the Full Circle Project at Sacramento State University. See Minority 
Serving Institutions: Educating All Students report for more 
details.\12\
    4. The Federal Government should require MSIs to collect data on 
student outcomes across various stages--including retention, 
developmental education, attainment, and post-college employment. 
Likewise, the Federal Government should provide MSIs with funding to 
make data collection regular and manageable as most MSIs lack the 
infrastructure to collect good data. Having good, solid data on hand 
increases MSIs performance at the State level where outcomes-based 
funding is becoming the norm and in their interactions with private 
foundation and corporations looking to fund MSIs.\13\
    5. As 11 percent of teacher education degrees nationwide were 
conferred by MSIs and a disproportionate number of teacher education 
degrees among students of color, it is essential to invest in teacher 
education programs at MSIs. Students in these programs are more likely 
to return to urban and rural communities to teach and can have a 
lasting impact on students of color in these communities. As the 
Nation's demographics change--as predicted by the U.S. Census--it will 
become even more important to have a teaching force that reflects the 
diversity of the Nation as research shows that having a teacher of the 
same racial or ethnic background increases student performance.\14\
                               References
    1. Clifton Conrad and Marybeth Gasman, Lessons from the Margins: 
What American Higher Education can Learn about Empowering All Students 
to be Successful in College. Cambridge, MA: Harvard University Press, 
forthcoming 2015.
    2. Marybeth Gasman and Clifton Conrad, Minority Serving 
Institutions: Educating All Students. (Philadelphia, PA: Penn Center 
for Minority Serving Institutions, 2013).
    3. Ibid.
    4. Ibid. See also, Marybeth Gasman, Benjamin Baez, and Caroline 
Sotello Turner, Understanding Minority Serving Institutions. (Albany, 
NY: State University of New York Press, 2007).
    5. Ibid. See also, Marybeth Gasman, Valerie Lundy Wagner, Tafaya 
Ransom, and Nelson Bowman, Unearthing Promise and Potential: Our 
Nation's Historically Black Colleges and Universities, (San Francisco: 
Jossey-Bass, 2010).
    6. Robert Teranishi, Asian American and Native American Pacific 
Islander Serving Institutions: Areas of Growth, Innovation, and 
Collaboration. (New York, NY: National Commission on Asian American & 
Pacific Islander Research in Education, 2012).
    7. Marybeth Gasman and Clifton Conrad, Minority Serving 
Institutions: Educating All Students. (Philadelphia, PA: Penn Center 
for Minority Serving Institutions, 2013).
    8. Data prepared for My Brother's Keeper Initiative by the Penn 
Center for Minority Serving Institutions (Marybeth Gasman, Andres 
Castro Samayoa, & Thai-Huy Nguyen), 2014. All data culled from the 
National Center for Educational Statistics.
    9. Data prepared for a W.K. Kellogg Foundation-sponsored project 
titled ``The Role of Minority Serving Institutions in Adopting and 
Implementing the New State Standards and Providing Leadership in 
Teacher Education'' by researchers at the Penn Center for Minority 
Serving Institutions (Marybeth Gasman, Andres Castro Samayoa, Kerry 
Madden, Karla Silva, and Carolina Davila). All data culled from the 
National Center for Educational Statistics.
    10. Marybeth Gasman and Nelson Bowman III, A Guide to Fundraising 
at Historically Black Colleges and Universities (New York: Routledge 
Press, 2010).
    11. Data prepared for a forthcoming report on community colleges 
that are also MSIs by the Penn Center for Minority Serving Institutions 
(Thai-Huy Nguyen, Valerie Lundy Wagner, Marybeth Gasman, Melanie Wolff, 
Desmond Diggs, Andres Castro Samayoa, and Carolina Davila) All data 
culled from the National Center for Educational Statistics.
    12. Marybeth Gasman and Clifton Conrad, Minority Serving 
Institutions: Educating All Students. (Philadelphia, PA: Penn Center 
for Minority Serving Institutions, 2013).
    13. Clifton Conrad, Marybeth Gasman, Todd Lundberg, et al, 
Collecting and Using Data at Minority Serving Institutions, 
Philadelphia, PA: Center for Minority Serving Institutions, University 
of Pennsylvania, October 2013.
    14. Recommendation based on data noted in reference 9.

    Senator Hagan. Thank you, Dr. Gasman.
    Dr. Lomax with the United Negro College Fund.

STATEMENT OF MICHAEL L. LOMAX, Ph.D., PRESIDENT AND CEO, UNITED 
               NEGRO COLLEGE FUND, WASHINGTON, DC

    Mr. Lomax. Thank you, Senator Hagan and Senator Paul, for 
the opportunity to testify on this important topic. Since our 
founding 70 years ago, UNCF's primary mission has been to 
increase the number of African American college graduates and 
especially from our 37 private member HBCUs.
    HBCUs are a best buy in American education because of their 
strong record in graduating low-income minority students. The 
Nation's network of public and private historically black 
colleges enroll 10 percent of all African American 
undergraduates and graduate nearly 20 percent of all African 
Americans with college degrees and 27 percent of African 
Americans with STEM degrees, and at an affordable price, 30 
percent less than other colleges.
    Today, HBCUs face a financial crisis. The institutions 
themselves and the students they serve were hard hit by the 
Great Recession and, more recently, have suffered losses from 
abrupt changes in Federal student financial aid policies, such 
as the devastating change in underwriting rules for parent-plus 
loans that caused many students already in college to withdraw.
    UNCF and our member institutions understand that it is our 
responsibility to confront these financial challenges and we 
are doing our part. In all, UNCF awards $100 million in 
scholarships each year to over 12,000 students with a 
significant share attending HBCUs. But the painful reality is 
that today, UNCF can provide scholarship assistance to only 1 
of every 10 qualified applicants.
    Our member institutions are working hard to assure our 
long-term viability through more effective practices throughout 
their academic enterprises. To assist them, UNCF established 
our Institute for Capacity Building, or ICB, to provide grants, 
technical assistance, and professional development. With ICB 
support, for example, Claflin University increased alumni 
giving to over 50 percent, a giving rate higher than some elite 
institutions.
    Four institutions, Clark Atlanta University, Oakwood 
University, Texas College, and Voorhees College, increased 
their applicant pools by at least 25 percent and first-time 
student retention by 13 percent. And Shaw University developed 
an institution-wide student loan default prevention initiative 
that reduced its cohort default rate by nearly 40 percent over 
3 years.
    Our institutions recognize they must change the way they do 
business in order to accelerate progress in closing achievement 
and attainment gaps. The reauthorization of the Higher 
Education Act represents an opportunity to spur innovation and 
new solutions at our institutions. With Federal venture 
capital, HBCUs could experiment, pilot, evaluate, and scale up 
promising best practices for student success.
    The HEA reauthorization also presents an opportunity to 
develop a holistic approach to helping more students of color 
go to and graduate from college. For example, the Federal 
student aid system must be improved so that it works better for 
low-income families. Reinvesting in Pell grants and summer Pell 
grants is essential to helping poor students finish college 
faster and at a lower cost.
    Moreover, the complexity of Federal student aid is both a 
barrier to college access for low-income families and a 
regulatory burden on institutions. It should be streamlined. 
Stafford and Plus loans should be improved with lower interest 
rates, more effective loan counseling, and reasonable credit 
criteria.
    Finally, Congress should establish a universal and 
automatic income-based student repayment system administered by 
the Federal Government. This could solve the student loan 
default problem and eliminate the need for cohort default rate 
measures that penalize HBCUs and smaller institutions and force 
them to focus on loan collection and not academic improvement.
    UNCF believes that a mind is a terrible thing to waste, but 
a wonderful thing to invest in. This is a sentiment I believe 
we can all support. I look forward to answering your questions.
    Thank you.
    [The prepared statement of Mr. Lomax follows:]
             Prepared Statement of Michael L. Lomax, Ph.D.
                              introduction
    Good morning and thank you Senator Hagan, Senator Paul, Chairman 
Harkin, Ranking Member Alexander and the entire committee for the 
opportunity to testify before you on a subject of critical importance 
to those of us who are working every day to enable more minority 
students to reach their full potential.
    I am Michael Lomax, president and CEO of UNCF. UNCF is the Nation's 
largest higher education organization serving students of color, 
perhaps best known by our iconic motto, ``A mind is a terrible thing to 
waste.'' UNCF was founded 70 years ago to consolidate fundraising for 
America's private Historically Black Colleges and Universities (HBCUs) 
and our primary goal is to increase the number of African American 
college graduates from our member institutions through fundraising to 
support scholarships. In addition, we both advocate for and support 
increasing African American graduates from other HBCUs and all U.S. 
colleges and universities, assuring these young people have the skills 
they need to excel in the 21st century economy. To underscore our 
philosophy that investing in young people will pay dividends for the 
entire nation, we have updated our motto to: ``A mind is a terrible 
thing to waste but a wonderful thing to invest in.''
    During UNCF's 70 years, we have raised over $4 billion in 
scholarship aid to help more than 400,000 students of color earn their 
degrees at HBCUs and 900 other colleges and universities across the 
country. We administer $100 million in scholarships annually through 
400 scholarship and internship programs. UNCF's largest program is the 
Gates Millennium Scholarship, founded in 1999 by The Bill and Melinda 
Gates Foundation through a $1.6 billion grant to be used for 
scholarships for high-achieving, low-income African American, American 
Indian/Alaska Native, Asian Pacific Islander and Hispanic American 
students across the country.
                       the hbcu value proposition
    UNCF's core mission, however, remains its partnership with the 
Nation's 37 private HBCUs, part of a network of 100 public and private 
HBCUs. Collectively, these institutions enrolled 235,000 undergraduate 
students in 2012, primarily first-generation, low-income and minority 
students.
    The HBCUs that partner with UNCF play a unique role in the Nation's 
educational environment, preparing the next generation of professional 
and civic leaders needed by communities, employers and the Nation, 
especially as the country trends toward a population and workforce in 
which the combined minorities are actually in the majority. In fact, 
recent studies by UNCF's Frederick D. Patterson Research Institute 
demonstrate that HBCUs often outperform larger, better-known and 
better-funded institutions at enrolling and graduating low-income 
students.\1\
---------------------------------------------------------------------------
    \1\ UNCF, Frederick D. Patterson Research Institute. 2012. 
Understanding HBCU Retention and Completion.
---------------------------------------------------------------------------
    In many ways, HBCUs are a ``best buy'' for students and the Nation. 
HBCUs represent 3 percent of all 4- and 2-year colleges and 
universities; enroll 10 percent of all African American undergraduates; 
confer 19 percent of all African American bachelor's degrees; and 
generate 27 percent of African American undergraduate STEM degrees, 
even though operating costs are among the lowest in the Nation. When 
the National Science Foundation ranked all colleges based on the number 
of African American graduates who went on to earn doctoral degrees in 
science and engineering, HBCUs took the top 10 places, ahead of elite 
private universities.
    HBCU accomplishments include the following:

    <bullet> Since 2008, Spelman College in Atlanta, GA has averaged a 
6-year graduation rate of 77 percent--the highest of the 100 HBCUs and 
substantially above the national average of 59 percent.
    <bullet> Claflin University in South Carolina has been recognized 
nationally as a leader by implementing a comprehensive plan that 
increased its retention rate by 8 percentage points in a single year; 
the university's 2012 retention rate was 74 percent--one of the highest 
of all HBCUs and slightly above the national rate.
    <bullet> Nearly 50 percent of graduates with bachelor's degrees 
from Xavier University in New Orleans, LA are in the science, 
technology, engineering and mathematics (STEM) fields.
    <bullet> In March 2014, a team of investigators from five HBCUs 
(Prairie View A&M University, Texas Southern University, Savannah State 
University, Tougaloo College, and Jarvis Christian College) was the 
first selected team of HBCUs to send a research payload to the 
International Space Station.

    HBCUs attain these results at an affordable price for students--30 
percent less, on average, than other institutions, with fewer resources 
available to them--and with operating budgets that average less than 50 
percent of those of other 4-year colleges. At the same time, the vast 
majority of HBCU students are economically disadvantaged and 
academically unprepared for the rigors of college. Yet, our 
institutions get these students across the finish line.
                   hbcu challenges and opportunities
    At UNCF, we are encouraged that the Nation is focused on producing 
more college graduates in order to secure a bright future for our 
citizens and country. UNCF brings a sense of urgency to the prospect of 
producing more African American graduates, particularly as we face 
significant challenges and much remains to be accomplished to meet our 
goals.
    Most important, HBCUs continue to face severe fiscal challenges. In 
fact, the money raised by UNCF for its 37 member HBCUs has become more 
important today than ever, as our member schools are experiencing a 
financial crisis as severe as any in UNCF's history. Already under-
resourced, HBCUs have lost over $250 million since 2011 in reduced 
Parent PLUS Loans, Pell Grants and other sources of critical Federal 
support for student financial aid, academic programs and student 
support services. Over 75 percent of students at HBCUs rely on Pell 
Grants--a substantially greater share than the 45 percent, on average, 
at other institutions.
    In addition to the financial crisis, college readiness remains a 
significant barrier to the success of students at our institutions. 
Research tells us that students from poor families have lower 
educational aspirations, inadequate secondary-level academic 
preparation, and are less likely to persist and complete their degrees.
    The good news is that interest from African American high school 
students in attending HBCUs has been on the rise for over a decade. 
Between the 2001-2 and the 2012-13 school years, UNCF member 
institutions saw a 78 percent rise in applications and a 64 percent 
increase in admissions. These numbers are comparable to all 4-year 
institutions. However, while enrollment at all 4-year institutions rose 
by 21 percent over the period, enrollment at UNCF's member HBCUs 
remained essentially flat, rising by only 5 percent. We believe the 
reason for this is a lack of student financial aid.
    I'm often asked how colleges that serve an almost exclusively 
African American population can still be relevant in today's world. The 
answers are quite simple. First, HBCUs do a very good job at educating 
their students. Based on research from UNCF's Patterson Research 
Institute, we know that HBCUs outperform non-HBCUs by 14 percentage 
points when it comes to graduating demographically identical low-income 
student populations.\2\
---------------------------------------------------------------------------
    \2\ Ibid.
---------------------------------------------------------------------------
    There are also deeper reasons for continued demand for HBCUs. I've 
talked to thousands of students about their interest in attending an 
HBCU, and they tend to raise three points to explain why they want to 
attend an historically Black college. First, they say the schools feel 
like home--they feel like family. Second, they believe HBCUs will let 
them explore themselves as an individual, rather than as a statistic. 
And finally, at an HBCU, they feel they can learn more about where they 
come from. This is a powerful set of motivators that echoes research 
from UNCF's Patterson Research Institute, and I believe will continue 
for many years to come.
    HBCU's have played--and are poised to continue to play--an outsized 
role in helping greater numbers of minority youth obtain a college 
degree. These strengths also lay the foundation for HBCUs to innovate 
and lead in a rapidly evolving higher education landscape. The 
traditional 18- to 22-year-old student population is no longer the 
typical college student in America. Today, non-traditional students--
working, career seeking and family supporting adults--are looking to 
obtain degrees or some type of postsecondary credential. And they are 
demanding a more personalized and convenient education that can be 
accessed online--anytime, anywhere, any place. The ground is literally 
shifting right under HBCUs and our institutions need to get out in 
front of the coming earthquake. HBCUs can become more adept at serving 
and reaching out to:

    <bullet> High-achieving students from low-income families, many of 
whom don't even apply to college because they believe they cannot 
afford it;
    <bullet> Older students who work full-time and need to take classes 
via non-traditional formats (virtually, on weekends, in blended 
formats, at an accelerated pace, assessing credit for prior experiences 
and competencies, etc.);
    <bullet> The over 35 million students who have earned some college 
credit but have not graduated, to provide them alternatives for earning 
their degrees; and
    <bullet> International residents who have visas and have worked in 
the country but have not earned a degree.
   what uncf is doing to increase african american college attainment
Addressing College Readiness
    UNCF is working to address the college readiness gap by making the 
case that the Nation must invest in students earlier in the educational 
pipeline. The pre-K through college pipeline is broken for communities 
of color, and particularly for African Americans. According to ACT, 
Inc., only 5 percent of African American high school graduates meet 
college readiness benchmarks across four major subjects (English, 
reading, math, and science). Through our local community engagement 
efforts across the country, UNCF is actively working to build support 
for effective school reform, and to make students and families aware 
that the high school diploma is no longer a ticket to the middle class. 
UNCF's Patterson Research Institute is developing high-quality research 
so that we have the data and analysis to support this work and, indeed, 
all of UNCF's major streams of work.
Addressing Financial Need
    UNCF is working hard to meet the strong demand by young African 
Americans for an education at our member schools, but donations have 
not kept pace with the demand, particularly in the aftermath of the 
Great Recession. In all, UNCF awards $100 million in college 
scholarships each year to over 12,000 students, with a significant 
share attending HBCUs. However, the ratio of applications to available 
scholarships is approaching 10 to 1.
    In 2009, thousands of students were at risk of being forced to 
leave college without their degrees largely due to the recession and 
the inability of their families to fill in the financial gap. In 
response, UNCF launched a just-in-time scholarship program (Campaign 
for Emergency Student Aid) that has raised over $20 million and helped 
over 8,000 students pay outstanding tuition and dormitory bills so 
students could graduate and begin their careers. Indeed, a relatively 
small scholarship averaging $1,500 has made the difference between a 
college dropout and a college graduate.
    In 2010, UNCF partnered with Citibank and the Knowledge is Power 
(KIPP) charter schools to launch the UNCF College Account Program 
(UCAP), with a $7.5 million gift from the Citi Foundation and Citibank. 
The UCAP program is a custom-designed college savings and scholarship 
initiative operating in Chicago, Houston, New York City, the San 
Francisco Bay Area and Washington, DC. KIPP elementary, middle and high 
school charter school students receive $50 and an equal match when they 
open a college savings account. Their contributions are matched up to 
$250 per year. In addition, high school seniors are eligible to receive 
scholarships for up to 5 years, further mitigating unmet financial need 
experienced by low-income students. KIPP regional coordinators work 
with Citibank branch offices to host financial literacy workshops for 
families and ``bank days'' for students. Over 8,000 students and 
families have enrolled since UCAP's inception, and more than $1.1 
million in student contributions and matching funds has been achieved.
    UNCF has redoubled our efforts to increase donations from the 
private sector, and we have revamped our operations to better serve 
UNCF members and students. We know that investing in students through 
UNCF works. Our Patterson Research Institute examined the effectiveness 
of our scholarships and found that an African American freshman who 
receives a $5,000 UNCF scholarship returns for her sophomore year at a 
94 percent rate, graduates in 6 years at a 70 percent rate--which is 
considerably higher than the 59 percent 6-year graduation rate at all 
4-year institutions--and sees her likelihood of graduating increase by 
over 7 percentage points.\3\ In contrast, the national 6-year 
graduation rate for African Americans is 40 percent. If we could 
increase that rate by over 7 percentage points, we would graduate close 
to 16,000 additional African Americans with bachelor's degrees each 
year. That is an investment that pays dividends not only to those 
students, but also to the country at large.
---------------------------------------------------------------------------
    \3\ UNCF, Frederick D. Patterson Research Institute. 2013. Building 
Better Futures: The Value of a UNCF Investment.
---------------------------------------------------------------------------
Enhancing HBCU Institutional Capacity
    Because HBCUs serve low-income students, their budgets are always 
tight and endowments are limited. That challenges the ability of HBCUs 
to operate effectively and efficiently and to evolve in response to 
higher education best practices--processes that better-funded 
institutions can afford to take for granted.
    UNCF presidents understand that building internal capacity in all 
aspects of their academic enterprise is key to both educational 
excellence and the long-term viability of their institutions. In 
response to this need, UNCF launched the Institute for Capacity 
Building (ICB) with support from the Kresge Foundation--whose visionary 
work on HBCU institutional advancement programs provided a model for 
ICB. Since 2006, UNCF has raised more than $30 million for ICB, which 
provides grants, technical assistance, consultative services and 
professional development opportunities to strengthen the ability of all 
UNCF member institutions, as well as other minority-serving 
institutions, to meet 21st century challenges.
    ICB's core program areas focus on:

    <bullet> Institutional Advancement, including enhancing the 
capacity of UNCF institutions to raise more private, unrestricted 
sources of funding and, especially, to increase giving by alumni;
    <bullet> Enrollment Management, including building communities of 
best practice across the UNCF network of institutions aimed at 
increasing student enrollment and improving retention and graduation 
rates;
    <bullet> Curriculum and Faculty Enhancement, including fostering 
solutions to help faculty excel in HBCU academic environments;
    <bullet> Fiscal and Strategic Technical Assistance, including doing 
``deep dives'' around issues of fiscal management, institutional 
effectiveness and compliance with accreditation and Federal student aid 
requirements;
    <bullet> Facilities and Infrastructure Enhancement, including 
building ``green'' at MSIs; and
    <bullet> Executive Leadership and Governance, including providing 
leadership training for college presidents, senior administrators and 
board chairs.

    The convergence of financial, technical and ``on the ground'' 
support has brought about new capacities that in some cases are 
unprecedented within UNCF campuses. For example, through the 
Institutional Advancement Program, 10 institutions \4\ developed 
comprehensive strategies for annual giving that increased total private 
gifts by 57 percent over a 3- to 4-year period. For example, Bennett 
College in North Carolina increased its total number of donors by 42 
percent and donations climbed by 70 percent. Claflin University in 
South Carolina more than doubled its first-time alumni donors, 
achieving an alumni participation rate of over 50 percent, which 
exceeds the participation rate at some elite universities and is twice 
the average 24 percent rate at private baccalaureate institutions 
according to the Council for Aid to Education's 2013 Voluntary Survey 
of Education.
---------------------------------------------------------------------------
    \4\ Benedict College, Bennett College, Claflin University, Huston-
Tillotson, Jarvis Christian College, Morehouse College, Philander Smith 
College, Talladega College, Virginia Union University and Wiley 
College.
---------------------------------------------------------------------------
    Through the Enrollment Management Program, four pilot institutions 
(Clark Atlanta University (Georgia), Oakwood University (Alabama), 
Texas College (Texas) and Voorhees College (South Carolina) increased 
their applicant pools by at least 25 percent and first-time student 
retention by 13 percent. Clark Atlanta University also increased its 5-
year graduation rate by 2 percentage points.
    ICB's Curriculum and Faculty Enhancement Program helped Virginia 
Union University (VUU) prepare undergraduate students to become math 
and science teachers in the Richmond, VA public school system. The ICB 
grant also helped VUU to develop courses, student learning communities 
and co-curricular activities in math and science.
    The Fiscal and Strategic Technical Assistance Program included the 
establishment of an Accreditation Registry. This registry allows UNCF 
to offer a central data base of experts in critical areas as 
institutions prepare for accreditation visits and reviews. Miles 
College in Alabama improved its assessment of graduates' status by 
using National Student Clearinghouse Student Tracker, made possible 
with ICB grant funds. Shaw University in North Carolina developed an 
institution-wide student loan default prevention and management 
initiative that led to a nearly 40 percent reduction in its cohort 
default rate in 3 years.
    Through the Facilities and Infrastructure Enhancement Program, UNCF 
launched a Building Green at Minority-Serving Institutions Initiative, 
which serves as a coordinating collective for sustainability efforts at 
historically black, tribal, Hispanic-serving and Asian American/Pacific 
Islander-serving institutions. The initiative identifies barriers to 
building green and incorporates principles of sustainable design and 
energy efficiency into campus building projects. As a result, the 
number of buildings and structures on MSI campuses that are registered 
for LEED certification has increased 30 percent. Lane College in 
Tennessee upgraded lighting in its athletic center, created a 
sustainability committee and began energy audits. Tougaloo College in 
Mississippi worked with MIT CoLab, a technical assistance partner, to 
establish a student-led Green Team to increase recycling, expand the 
community garden and support curriculum updates.
Promoting STEM and Innovation
    Recognizing the potential of HBCUs to be hubs of innovation, and 
the need to dramatically increase African American participation in the 
innovation economy, UNCF embarked on a new course to expand its reach 
and impact through a major STEM initiative. HBCUs already have a strong 
track record in launching the STEM careers of African Americans. UNCF 
is building on these efforts to change the face of STEM with its 
groundbreaking partnership with Merck. The UNCF/Merck Science 
Initiative (UMSI), a $44 million program now in its 18th year, has 
produced more than 600 world-class African American research scientists 
in biological, chemical and related disciplines. The UMSI capacity 
building program is increasing the research participation levels among 
undergraduates, enhancing career development and fostering a culture of 
inquiry on campus.
    In 2013 and 2014, UNCF launched the centerpiece of its new STEM 
initiative--a national HBCU Innovation Summit held in Silicon Valley. 
The purpose of the Summit was to build bridges between HBCUs and the 
technology community, and to develop and enhance the innovation and 
entrepreneurial capacity of HBCUs--with the goal of establishing 
productive innovation-entrepreneurial ecosystems across the HBCU 
network.
Using Research, Data and Analysis for Continuous Improvement and to 
        Drive Results
    UNCF is supporting the national conversation about how to provide a 
quality education to all by developing and using data, research, 
evaluation and assessment to inform our work on minority education and 
to drive results. Since its founding in 1996, UNCF's Patterson Research 
Institute, frequently quoted in this document, has conducted research 
on the educational status and progress of African Americans.
    The first publication in a growing body of research in K-12 
education, Patterson's study, ``Done to Us, Not With Us: African 
American Perceptions of K-12 Education'' is helping to inform UNCF's 
work in target cities focused on increasing parental involvement for 
students of color and low-income backgrounds. Patterson is documenting 
the impact of UNCF scholarships on the students who receive them, and 
also analyzing the performance and progress of UNCF member institutions 
along key dimensions, such as access, affordability, persistence and 
completion.\5\ One such study, just completed, examined the 
affordability of the 37 UNCF member institutions benchmarked against 
peer institutions. It concluded that our institutions offer African 
Americans a viable, affordable avenue toward a college degree--with 
average total prices that are 26 percent lower than at comparison 
institutions.\6\ This study is one of an ongoing series exploring how 
African Americans pay for college, policies and regulations that 
influence their ability to finance college attendance; and various 
institutional and individual factors that pay a role in how money 
facilitates college access, retention and completion.
---------------------------------------------------------------------------
    \5\ UNCF, Frederick D. Patterson Research Institute. 2013. Building 
Better Futures: The Value of a UNCF Investment.
    \6\ UNCF, Frederick D. Patterson Research Institute. 2014. Lower 
Costs, Higher Returns: UNCF HBCUs in a High-Priced College Environment.
---------------------------------------------------------------------------
      recommendations for the higher education act reauthorization
    The challenges and opportunities facing HBCUs come at a critical 
juncture in our Nation's drive to produce more African American college 
graduates--a time when a college education is both more essential and 
more expensive than ever. The reauthorization of the Higher Education 
Act (HEA) presents an important opportunity to develop a holistic 
approach to moving more students to and through college, particularly 
students of color. I would like to turn to UNCF's policy 
recommendations for renewing the HEA, particularly as they relate to 
HBCUs.
Re-invest in and Modernize Pell Grants
    As you know, Pell Grants are the cornerstone of our national 
commitment to make higher education accessible and affordable for all, 
but especially those students who lack the financial means to attend 
college but stand to gain the most from a college education.
    UNCF urges the committee to re-invest in and modernize Pell Grants 
to meet 21st century needs. We recommend that the committee reverse the 
programmatic cuts made between 2011 and 2013, which drained more than 
$53 billion in vital college assistance from financially needy 
students. These reductions work against students at HBCUs who have the 
greatest financial need and often take longer to complete their degrees 
due to financial constraints. Accordingly, we support (1) restoring the 
``summer'' Pell Grant that enables students to earn their degrees 
faster and at a lower cost; (2) restoring the income threshold to 
$32,000 for an automatic Pell Grant and (3) repealing the 6-year limit 
for Pell Grant eligibility. Further, the Federal Government should make 
an early Pell Grant funding commitment to low-income high school 
students to increase college-going rates and improve K-12 academic 
outcomes by helping these young people to believe that college is 
possible. Finally, the complexity of the Federal student aid process 
and regulations is both a barrier to college access for low-income 
students and a burden on institutions. We urge the committee to explore 
the many ways in which financial aid experts have suggested to 
streamline a financial aid system that is confusing to students and 
parents.
Improve Parent PLUS Loans
    When the Department of Education unilaterally tightened the credit 
requirements that determine eligibility for Parent PLUS Loans in 
October 2011, we learned just how critical these loans are to college 
access for thousands of students across the country, and especially to 
those students at HBCUs. Initially, 400,000 students nationwide and 
28,000 students at HBCUs were impacted. Ultimately, HBCUs experienced a 
45 percent drop in the number of students whose parents were able to 
obtain Parent PLUS Loans in the 2012-13 academic year and suffered a 
$155 million or 35 percent reduction in Parent PLUS Loan revenue from 
already tight budgets. While the situation has improved somewhat in the 
2013-14 academic year, thousands of low-income students continue to be 
denied access to the HBCU of their choice because of Parent PLUS Loan 
denials.
    UNCF member presidents are working in good faith in negotiated 
rulemaking sessions on this issue at the Department of Education. 
However, should the Department of Education issue regulations this fall 
that fail to adequately address this problem, UNCF will seek this 
committee's support for a legislative remedy.
    Further, we recommend several statutory improvements for the Parent 
PLUS Loan program, including: (1) lowering interest rates and 
origination fees; (2) incorporating loan counseling for parents so that 
they borrow only what they need and understand their loan obligations; 
(3) extending the eligibility period to 2 award years; (4) 
incorporating more flexible repayment options; and (5) granting 
institutions flexibility to provide additional Federal aid to students 
in good academic standing whose parents are denied PLUS loans.
Delay Cohort Default Rate Sanctions
    Cohort default rates are an emerging issue that looms large over 
our institutions. Beginning this year, institutions can lose title IV 
eligibility if they exceed a 3-year cohort default rate of 30 percent 
for 3 consecutive years. That is a death sentence for any college or 
university.
    In the short term, HBCUs seek a 2-year delay in sanctions relating 
to cohort default rates. Cohort default rate sanctions unfairly 
penalize HBCUs, which are at greatest risk of losing Federal student 
aid eligibility because their students disproportionately rely on 
Federal loans to attend college, and borrow greater amounts, due to 
their limited financial means. Some HBCUs could exceed the 30 percent 
threshold if just a few students default because of their small 
enrollments. Moreover, when the new CDR requirements were enacted in 
2008, neither Congress nor the HBCU community anticipated that 
graduates would be entering the worst job market since the Great 
Depression. The recession and sluggish recovery impacted the ability of 
many graduates to find employment and, thus, timely repay their loans.
Redesign the Student Loan Program By Establishing A Universal and 
        Automatic Income-based Student Loan Repayment System
    Unfortunately, the Federal Government is holding colleges 
accountable for student repayment of Federal education loans, when the 
loans are issued by the Federal Government and institutions do not have 
flexibility to reduce the amounts that students borrow below the 
statutory loan limits. Ensuring that students repay their loans is a 
distraction for our institutions and a drain on limited resources since 
schools must hire consultants to identify and track students who become 
delinquent on their loan repayments. UNCF member institutions want to 
focus on the academic needs of their students. The Federal Government 
should lift the burden of loan debt collection off their shoulders.
    UNCF supports the establishment of a universal and automatic 
income-based student loan repayment administered by the Federal 
Government. Australia, the United Kingdom and other countries have 
figured this out; they have implemented successful systems for the 
government to collect on student loans through automatic, income-based 
repayment. In these countries, there is no student loan default 
problem. This is a solution that is simple, streamlined and a sensible 
way to support students who must take out loans to finance their 
futures, without burdening institutions with the role of debt 
collector.
Support and Spur Innovation at HBCUs
    HBCUs could be important engines of innovation--generating and 
testing new ways of meeting the needs of an increasingly diverse 
student population; addressing the current challenges faced by higher 
education in providing quality education anytime, anywhere; any place; 
preparing students for a changing economy; and moving research ideas 
out of the laboratory and classroom into the marketplace. The HEA 
provides basic formula support to HBCUs through the title III, part B 
program, which supports basic operating needs. But, HBCUs could do so 
much more, if they only had the opportunities and resources.
    New venture capital should be authorized within HEA to provide the 
resources and incentives for HBCUs to experiment, pilot, evaluate and 
scale up promising best practices for student success and to catalyze 
centers of innovation where the best minds can integrate education and 
research in exciting and new ways to drive innovation. The 
possibilities are almost limitless.
Modernize Title III Formula Grants
    Title III, part B discretionary and mandatory grants are the 
bedrock of Federal financial support to our institutions, providing 
essential formula-based aid for academic programs, fiscal and 
management improvements, and technology. We support continued 
authorization for both the discretionary and mandatory programs, with 
several changes that we believe will strengthen the program. We 
recommend provisions expressly permitting title III funds to be used 
for creating or improving institutional capacity to offer distance 
education programs. In addition, UNCF supports expanding the authorized 
use of title III funds for supportive services, similar to the current 
authorization under the title V program.
Expand the HBCU Capital Financing Program
    The HBCU Capital Financing Program provides HBCUs with access to 
low-interest loans not available elsewhere to support physical 
infrastructure and facility improvements. This program is a good news 
story for both HBCUs and taxpayers. As a result of previous 
investments, HBCUs have provided students with enhanced learning and 
living environments, rebuilt and restored historic buildings, and 
provided jobs in their communities, with little risk to the government 
since each borrowing institution must contribute 5 percent of loan 
proceeds to a pooled escrow fund to cover any potential delinquencies 
or defaults. UNCF supports an increase in cumulative loan authority 
from the current $1.1 billion set in 2008 to $3 billion to accommodate 
institutional infrastructure needs over the period of the next HEA 
reauthorization. In addition, we request that interest rates for loans 
for STEM-related facilities be lowered, to facilitate an expansion of 
the capacity of HBCUs to produce STEM graduates.
Recognize ``Degree of Difficulty'' in the Proposed College Rating 
        System and Do Not Distribute Federal Student Assistance Based 
        on College Ratings
    Finally, UNCF would like to comment on the college rating system 
proposed by President Obama--officially named the Postsecondary 
Institution Ratings Systems. UNCF agrees that institutions should be 
held accountable for the quality of higher education they deliver. 
Nonetheless, we are concerned because the President's plan has the 
potential to punish HBCUs that are already doing the hard work that 
needs to be done by educating large proportions of low-income, minority 
students, while privileging those institutions whose metrics look good 
on paper but have done little to get more minority students to the 
finish line.
    The President's plan also does not appear to take into 
consideration capacity and resource constraints that disadvantage 
HBCUs, and that can limit the ability of an institution to provide the 
necessary student support services so that underprepared students can 
succeed academically and institutional financial aid that can help 
students stay in school.
    Dr. Walter Kimbrough, president of Dillard University, developed an 
apt metaphor for college performance ratings based on the scoring used 
in competitive diving.\7\ In diving, swimmers receive a raw score from 
1 to 10 based on dive execution. That score is averaged by the judges 
and then multiplied by the degree of difficulty for the overall score. 
For any college rating system to be fair and accurate, ``degree of 
difficulty'' in serving students must be calculated when judging 
institutional performance. Institutional raw scores must be adjusted to 
account for differences in the socio-economic composition of student 
populations, student academic preparation, institutional resources and 
other factors beyond an institution's control, using a valid 
methodology.
---------------------------------------------------------------------------
    \7\ Walter Kimbrough. 2013. Inside Higher Education. When Rating 
Colleges, Think Diving.
---------------------------------------------------------------------------
    UNCF opposes awarding and distributing Federal student assistance 
funds based on college ratings, as the President has proposed. We 
believe that such a system would result in significant inequities in 
the allocation of Federal financial aid to low-income students, 
undermine access and choice, and turn on its head the longstanding 
principle that Federal student assistance is awarded based on need.

    Senator Hagan. Thank you, Dr. Lomax.
    Mr. Oakley.

STATEMENT OF ELOY ORTIZ OAKLEY, B.A., M.B.A., PRESIDENT OF LONG 
               BEACH CITY COLLEGE, LONG BEACH, CA

    Mr. Oakley. Thank you, Chair Hagan, Ranking Member Paul, 
and distinguished members of the committee. Thank you for 
inviting me here today to discuss these very important topics. 
I have the pleasure of serving as the president of Long Beach 
City College in Long Beach, CA, and I'm honored to be here 
today in support of this committee's policy work that will 
shape America's future. And I'm very grateful that you have 
exhibited interest in what we're doing in Long Beach.
    I testify before you today as a veteran of the U.S. 
military, as a Latino American, and as a first-generation 
college student who attended a California community college and 
had the opportunity to transfer to a University of California 
campus. This issue of strengthening MSIs to increase the number 
of under-represented students that obtain a quality college 
credential is something that drives my presidency and I believe 
is a major economic imperative for our Nation.
    The members of this committee are well aware of the 
demographic shifts in America and of the stubborn education 
achievement gaps that threaten our economic prosperity. While 
this gap is closing, it still has major economic and policy 
implications that I believe should be addressed by the 
reauthorization of the Higher Education Act.
    Long Beach City College serves a diverse student population 
like many other urban community colleges. More than 83 percent 
of our students are from minority ethnic groups. The college 
has held the Hispanic serving institution designation for the 
past 17 years. Forty-one percent of our students received Pell 
grants, and more than 70 percent received need-based aid from 
California in 2012-13. In addition, 62 percent of our students 
are first-generation college students.
    To improve student success, my college has implemented 
several key programs that have significantly increased college 
access and success for our students. The foundation of these 
efforts is in the Long Beach College Promise. The Long Beach 
College Promise is a partnership between the Long Beach Unified 
School District, the third largest school district in 
California, Long Beach City College, and California State 
University Long Beach.
    The College Promise guarantees students from the Long Beach 
Unified School District the opportunity to pursue a college 
education locally. Students and families know what steps are 
required, and, in return, they receive preferential admission 
to Long Beach State, and if they decide to attend Long Beach 
City College, they receive additional financial assistance.
    Through the College Promise, we have been able to reduce 
financial and structural barriers which prevent students from 
pursuing college. California's Little Hoover Commission cited 
the College Promise as a model that should be replicated 
throughout California.
    Our partnership also provided us an opportunity to address 
one of the most significant barriers for under-represented 
students, placement into remedial courses. Until recently, more 
than 90 percent of Long Beach City College students were being 
placed into remedial courses, making them much less likely to 
succeed in college.
    Our research staff conducted research that proved high 
school grades were the best predictor of success in college 
level courses. Prior to this research, my college, like most 
colleges throughout the Nation, used standardized test scores 
to place incoming students.
    Based on this research, my college developed the Promise 
Pathways initiative in 2012. We use predictive analytics to 
assess and place students into English and math courses based 
on their high school achievement instead of standardized 
assessment tests.
    As a result of these changes, successful completion rates 
of transfer-level English in the first year increased from 12 
percent to 41 percent, and in math from 5 percent to 15 
percent. Students were placed directly into college level 
courses, and they succeeded at the same rate as other students 
who had to take several semesters of remedial courses.
    These findings are not unique to Long Beach City College. 
The potential extends well beyond California and throughout the 
Nation. These results have been validated by several other 
community colleges in California, as well as from research from 
the Community College Research Center.
    National organizations like the American Association of 
Community Colleges and Complete College America are calling for 
community colleges to shift assessment and placement away from 
relying solely on placement exams. While this doesn't solve all 
of our problems of completion, we believe that this is an 
important step in the right direction. And we believe it will 
help more students earn more degrees in a much shorter period 
of time.
    I believe we are on the right path. I look forward to your 
questions and thank you again for inviting me here today.
    [The prepared statement of Mr. Oakley follows:]
         Prepared Statement of Eloy Ortiz Oakley, B.A., M.B.A.
    Chairman Harkin, Ranking Member Alexander, and members of the 
committee, thank you for inviting me here today to discuss two 
important topics that have significant impact on our Nation: 
strengthening Minority Serving Institutions (MSIs) and best practices 
and innovations for student success.
    My name is Eloy Ortiz Oakley and I serve as the superintendent-
president of Long Beach City College, in Long Beach CA. I am honored to 
be here today in support of the very important policy work of this 
committee. Your work will shape the future of America and I am grateful 
that you have an interest in learning more about how we serve students 
in Long Beach. I testify before you today as a veteran of the U.S. 
military, a Latino American and a first generation college student who 
transferred from a California community college to a University of 
California campus. The issue of strengthening MSIs to increase the 
number of under-represented and first generation students who obtain a 
quality college credential is an issue that drives my presidency at 
Long Beach City College and is a major economic imperative for our 
Nation.
    As you are aware, community colleges and in particular MSIs are the 
gateway to higher education credentials for millions of Americans and 
are critical to meet the Nation's need to prepare a globally 
competitive workforce in the 21st Century and beyond.
    According to the U.S. Department of Education data, Latinos 
represented 14 percent of the total Fall 2012 enrollment at degree-
granting institutions. In Fall 2012, 57 percent of Latinos attended 2-
year public institutions and 43 percent attended 4-year public 
institutions. According to U.S. Census Bureau data, Latinos are 
significantly less likely to complete their education--about 11 percent 
of 22-24-year-old Latinos have attained at least a bachelor's degree, 
half of the national average for this cohort (22 percent). This gap, 
which fortunately is closing, has major economic and policy 
implications and should be addressed in the reauthorization of the 
Higher Education Act (HEA).
    Long Beach City College (LBCC), like many urban community colleges, 
serves a diverse student population in terms of ethnic and racial 
demographics, economic status, native language and college preparation. 
More than 83 percent of our students are from minority ethnic groups 
and LBCC has held the Department of Education's Hispanic-Serving 
Institution (HSI) designation for the past 17 years. As you can see, 
LBCC exemplifies the face of America's future.
    Latino students are our largest student cohort and represent more 
than 52 percent of our student body. Latino enrollment at LBCC has 
risen substantially in the last decade, from 28 percent in 2002, and is 
expected to continue to increase given enrollment demographics of our 
largest local K-12 system, in which 84 percent of the students in the 
2013-14 school year represent ethnic minority groups and 55 percent are 
Hispanic. LBCC also serves large numbers of African American (18 
percent) and Asian/Pacific Islander (14 percent) students.
    LBCC also serves a student population with significant financial 
need. Forty-one percent of our students received Pell grants and more 
than 70 percent received need-based State aid in the form of Board of 
Governors enrollment fee waivers in the 2012-13 academic year. In 
addition, 62 percent of our students are first-generation college 
students.
    LBCC has implemented several key interventions and programs that 
have significantly increased student success, which I will discuss in 
more detail later. Even as the college has seen improvements in the 
number of students completing key academic milestones, stubborn 
achievement gaps persist. According to the California Community College 
Chancellor's Office (CCCCO) Student Success Scorecard data for the 
2007-8 6-year cohort, Latinos demonstrated an overall completion rate 
of 36 percent versus 48.5 percent for Whites. Closing this and other 
achievement gaps and increasing the number of students receiving a 
community college credential or becoming transfer ready are the primary 
goals of LBCC and should be incentivized through the HEA.
 scalable interventions: long beach college promise & promise pathways
    LBCC has implemented several key interventions and programs that 
have significantly increased college access and success for our 
exceptionally diverse student body. The foundation of these efforts is 
the Long Beach College Promise--a partnership between Long Beach 
Unified School District, Long Beach City College and California State 
University, Long Beach.
    Through the College Promise, our local public education 
institutions forged a partnership to improve preparation, access and 
success for our local students and specifically to address the barriers 
that first-generation students face in matriculating to and succeeding 
in higher education.
    Together, we have built a holistic system that begins in elementary 
school and extends through college completion. At its core, the College 
Promise guarantees students from the Long Beach Unified School District 
the opportunity to pursue a college education locally. Students and 
families know what steps are required and in return receive access to 
preferential admission consideration at Long Beach State and financial 
assistance if they decide to attend Long Beach City College.
    Here are just a few statistics to show what this partnership has 
accomplished in the 6 years since the inception of the College Promise:

    <bullet> More than 31,000 fourth-graders have attended day-long 
field trips to LBCC, and 31,000 fifth-graders have attended field trips 
to CSULB.
    <bullet> More than 57,000 middle-school students and their parents 
have completed and signed Long Beach College Promise Pledges, which 
commits parent and student to satisfactorily completing college and 
career preparatory courses.
    <bullet> More than 5,600 students have had a free first semester at 
LBCC, intended to mitigate financial barriers to attending college.
    <bullet> There has been 43 percent increase in LBUSD students 
enrolling at California State University, Long Beach despite 
significant increases in overall selectivity.

    California's Little Hoover Commission cited the College Promise as 
a model that should be replicated throughout California saying:

          ``Regional partnerships such as the Long Beach College 
        Promise not only get high school students to think of 
        themselves as college-bound, but to prepare themselves so they 
        are in a better position to succeed once they are there.'' \1\
---------------------------------------------------------------------------
    \1\ A New Plan for a New Economy: Reimagining Higher Education, 
Little Hoover Commission 2013; p. 35.

    Through the College Promise, we have been able to reduce financial 
and structural barriers which too often prevent students from pursuing 
college.
    Our partnership also provided an opportunity to address one of the 
most significant barriers to increasing college completions, especially 
for under-represented students: placement into remedial (developmental) 
courses.
    Placement into remedial education is a significant barrier to 
completion. A recent report from the Community College Research Center 
at Teachers College, Columbia University (CCRC) found that only 28 
percent of community college students who take a developmental 
education course go on to earn a degree within 8 years, and many 
students assigned to developmental courses drop out before completing 
their sequence and enrolling in college-level courses. These numbers 
are particularly chilling since national figures show that 68 percent 
of community college students enroll in at least one remedial 
course.\2\ These numbers are significantly higher for Latino and 
African American students.\3\
---------------------------------------------------------------------------
    \2\ What We Know About Developmental Education Outcomes, Community 
College Research Center; January 2014.
    \3\ Remediation: Higher Education's Bridge to Nowhere, Complete 
College America, 2012.
---------------------------------------------------------------------------
    At Long Beach City College, 90 percent of incoming students were 
being placed into remedial courses in English, math or reading. Despite 
all of our work to align curricula and to improve preparation, Long 
Beach Unified graduates were only doing slightly better.
    Our close relationship with Long Beach Unified provided both the 
opportunity and the impetus to seek a new approach. Long Beach City 
College research staff examined 5 years of data from incoming freshmen 
from Long Beach Unified high schools to identify the best predictors 
for success in college courses. The research showed that high school 
grades were the best predictors of success in college-level courses and 
yet LBCC, like most colleges, relied primarily upon standardized test 
scores to place incoming students.
    The impact of this disproportionate emphasis on standardized test 
scores has been profound: many students who would likely succeed in 
transfer level English and math were being diverted into remediation--
often multiple semesters in each subject. This misalignment between 
high school preparation and college placement was causing unnecessary 
remedial placements, slowing and too often halting altogether, momentum 
toward a degree or transfer, and disproportionately affected students 
of color.
    Based on the opportunity this research presented and other best 
practices, Long Beach City College developed the Promise Pathways 
initiative, which launched in the fall of 2012. The initial cohort of 
freshman consisted of 976 diverse students and the results they 
achieved are impressive. LBCC used predictive analytics to assess and 
place these students into English and math courses based on their high 
school achievement, instead of standardized assessment tests. 
Assessment into college-level English increased from barely 10 percent 
using traditional assessment in the previous cohort to almost 60 
percent using multiple measures assessment. Assessment into college-
level math increased from less than 10 percent to over 30 percent.
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]  

    LBCC also provided these students with clear first-semester 
education plans and registration priority to ensure that students 
enrolled in these foundational courses upon entry into college. 
Students were also encouraged to enroll full-time and 85 percent of the 
cohort did.
    As a result of these changes, first time students in Promise 
Pathways were much more likely than students in previous cohorts to 
successfully complete transfer-level English and math and to achieve 
key early milestones in their first year. Successful completion rates 
of transfer-level English in the first year jumped from 12 percent in 
the previous year to 41 percent. For transfer-level math, successful 
completion in the first year increased from 5 percent to 15 percent. 
(See graph.)
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]  

    Importantly, despite dramatically expanding placement directly into 
college-level coursework, those students succeeded at the same rates as 
students who had received multiple semesters of developmental 
instruction and had persisted through multiple years at the college 
(both typically predictors of higher rates of success), and 
outperformed other first-time students who tested in via the 
assessment, providing powerful validation of the initiative.
    Access to, entry into and, most importantly, completion of 
transfer-level courses increased for all demographic groups. Rates of 
achievement of these milestones increased for every demographic group 
with some of the largest relative gains made by Latino and African 
American students. In fact, the rates of achievement of these 
milestones by students of color in the Promise Pathways in 2012 
outpaced those of white students in 2011 in nearly every case.\4\
---------------------------------------------------------------------------
    \4\ Overview and disaggregation of the impact of the Fall 2012 
Promise Pathways on key educational milestones, LBCC Office of 
Institutional Effectiveness; 2013.
---------------------------------------------------------------------------
    The 2013 Promise Pathways cohort of more than 1,300 students and 
comprised of students from three school districts showed similar gains 
mid-year and demonstrates that the positive effects of using multiple 
measure-based placement is not limited to a single school district.
    The implications of our initial efforts are clear: basing 
assessment and course placement upon a blunt instrument like a 
placement test needlessly impeded many of our students who already had 
the tools to succeed by putting them in remedial courses that they 
didn't need and that often failed to improve student outcomes.
    Tremendous gains were made by adjusting in how we placed students 
to align with evidence of their previous achievement. But what is most 
promising and important for this committee to know is that these 
findings are not unique to Long Beach City College. The potential reach 
of this extends throughout California and the United States.
    LBCC's award-winning Predictive Placement model \5\ has been tested 
at other community colleges in California, and according to a recent 
report from the RP Group, our efforts ``helped catalyze . . . a growing 
network of colleges reproducing and refining this approach and using 
its results to inform local use of multiple measures in placement.\6\ 
The California Community College Chancellor's Office is developing a 
statewide multiple measures database, based on the methods developed at 
Long Beach City College, to enable expanded use of high school grades 
to place students.\7\
---------------------------------------------------------------------------
    \5\ President Oakley accepted the 2014 James Irvine Leadership 
Award in recognition of the Promise Pathways initiative. LBCC's 
research received the 2014 Mertes Award for Excellence in Community 
College Research & the 2012 RP Group Excellence in College Research 
Award.
    \6\ Stepping Up: Progression in English and Math from High School 
to College, Willet & Karandjeff, RP Group; 2014.
    \7\ Multiple Measures Assessment Project, RP Group; 2014.
---------------------------------------------------------------------------
    Several studies from the Community College Research Center at 
Teachers College, Columbia University strongly support the use of 
multiple measures using high school achievement in assessment of 
students' readiness for college-level work.\8\ Findings from one large 
scale study found that ``one in four test-takers in math and one in 
three test-takers in English are severely mis-assigned under current 
test-based policies, with mis-assignments to remediation much more 
common . . . [and u]sing high school transcript information--either 
instead of or in addition to test scores--could significantly reduce 
the prevalence of assignment errors.'' \9\
---------------------------------------------------------------------------
    \8\ Do High-Stakes Placement Exams Predict College Success?, Scoot-
Clayton, CCRC; 2012 & Predicting Success in College: The Importance of 
Placement Tests and High School Transcripts, Belfield & Crosta, CCRC; 
2012.
    \9\ Improving the Targeting of Treatment: Evidence from College 
Remediation, Scott-Clayton, Crosta & Belfield, CCRC; 2012.
---------------------------------------------------------------------------
    National organizations like the American Association of Community 
Colleges \10\ and Complete College America \11\ are calling for 
community colleges to shift assessment and placement away from primary 
reliance upon traditional standardized placement tests. Several States, 
most notably Florida and North Carolina, have recently implemented 
significant changes to assessment and placement practices in their 
community colleges.\12\
---------------------------------------------------------------------------
    \10\ Empowering America's Community Colleges to Build the Future: 
Implementation Guide, AACC; 2014 p. 18.
    \11\ Core Principles for Transforming Remedial Education: A Joint 
Statement, Complete College America; 2012 pp.3-4.
    \12\ ``Reimagining Remediation,'' Community College Week, Paul 
Bradley; Jan. 6, 2014.
---------------------------------------------------------------------------
    While improving assessment and placement alone will not solve our 
completion challenges, it clearly is one of the most effective steps 
that can be taken and will produce savings for taxpayers and students 
by not forcing students to retake coursework they had already 
successfully completed but also will help more students earn degrees 
and certificates by removing barriers and help them do so more quickly. 
The saved opportunity costs of 1-2 additional years of college being 
replaced with 1-2 additional years of adult earning potential for 
thousands of students at LBCC alone are tremendous. At the national 
level, adding 1-2 years of earning potential back to the productive 
adult lives of millions of citizens would be a significant boost to our 
Nation's economy. When combined with other efforts to improve 
remediation, create clear pathways for students and to target resources 
toward completion, evidence-based placement is an essential ingredient 
to meeting our goal for having 60 percent of adults earn a post-
secondary credential.
    We believe that LBCC is on the path to continued success. There are 
many ways in which the Federal Government can assist these and other 
efforts to increase success of under-represented students. These 
recommendations follow.
          implications and recommendations for federal policy
Expand Support for MSIs through Title III & V
    <bullet> As our Nation and its colleges and universities become 
more diverse, the need for programs to support completions of minority 
students is increasing. Unfortunately, current program and funding 
levels are not keeping pace with the increased demand. Competition for 
HSI, PBI and AANAPISI is intense and many deserving institutions and 
students are not funded under the HEA currently. While we understand 
that funding remains a challenge, we do believe that increased support 
is a solid investment in our Nation's future productivity.
    <bullet> Competitive grants are currently available to colleges 
designated as an AANAPISI, HSI, and PBI. Colleges are precluded from 
applying for more than one competitive grant even when they qualify for 
more than one designation. Colleges that qualify for multiple MSI 
designations--like LBCC in which 83 percent of our students are 
minority students--should be allowed to apply for title III & V 
competitive grants in more than one of the designations. Multiple MSI 
grants will enable colleges with large minority populations to scale 
interventions to meet all students' needs and encourage more innovation 
in interventions resulting in improved outcomes for more under-
represented students. Because these grants are targeted to specific 
populations at a given college, there is no reason why the current 
limitation should be retained.
Support Use of Student Data for Placement
    <bullet> Too often, Federal policies like Family Educational Rights 
and Privacy Act (FERPA) inhibit efforts like LBCC's Promise Pathways 
program, which uses grades to help students. The sharing of student 
data can improve transition between K-12 and college, lead to improved 
assessment and placement, create opportunities for personalized 
interventions, and assist colleges in preparing student plans at the 
time of enrollment. LEAs and higher education institutions should be 
further permitted to use data to help students so long as student 
privacy is protected. And even though promising steps are being taken 
in California, data sharing agreements between the California 
Department of Education and the Chancellor's Office continue to be 
cumbersome and difficult to deploy. We also believe that earnings 
information should be made available on all undergraduate students, 
assuming, again, that privacy is maintained.
Promote College Readiness
    <bullet> Institutions should be given incentives, including 
funding, to work with their local secondary schools to engage in 
practices that ensure students receive adequate preparation for higher 
education. Enhanced counseling, dual enrollment offerings, and early 
college assessment (leading to better choices in high school 
curriculum) have been found effective in increasing student 
preparation. Creating incentives will encourage more K-20 partnerships 
such as the Long Beach College Promise. This proposal is also supported 
by the national community college association (American Association of 
Community Colleges).
Restore & Expand Pell Grant Program
    <bullet> The year-round Pell Grant, which is so critical to older, 
working students, needs to be restored, as does eligibility for 
ability-to-benefit (ATB) students. Year-round Pell Grants will allow 
more students to take courses that lead to degrees and transfer 
preparation during the summer and winter intersessions, which will 
decrease time to degree and increase awards. Given the current lifetime 
limit on Pell Grants, there is no logical reason not to re-instate the 
year-round Pell Grant. California was disproportionately impacted by 
the loss of ATB eligibility and we believe that this was a short-
sighted policy, particularly given that the State bears the primary 
cost of educating these students, and believes that they merit support 
by the Federal Government as well.
    <bullet> Higher education should be viewed as an investment both in 
the U.S. economy as well as the attainment of greater equity for 
individuals. Adequate funding for this foundational program must be 
retained. In particular, the base appropriated grant of $4,860 must be 
sustained so that automatic inflation-adjusted increases are 
implemented. More than 3.3 million community college students--about 34 
percent--received a Pell Grant last year.
Simplify Filing the Free Application for Federal Student Aid (FASFA)
    <bullet> Currently, too many community college students fail to 
file the FAFSA. There are a variety of reasons for this, including 
cultural barriers, a reluctance to become enmeshed with the Federal 
Government, a lack of awareness of the true cost of the education, and 
the complexity (and steps involved) in the application process. 
Students cannot access student financial if they don't first apply for 
it, and further action in this area is needed. This includes continued 
simplification of the aid application as well as greater early 
awareness efforts, perhaps through the tax-filing process.
Use Financial Aid to Create Incentives for Student Success
    <bullet> Community colleges always have and always will emphasize 
the ``open door'' that is a central part of their heritage. However, 
new incentives for students to come ready for higher education and to 
persist in it are appropriate in a changing environment. Some studies 
show that ``aid like a paycheck'' and financial incentives for 
completion may play a helpful role in persistence. The student aid 
programs may need to allow for new types of programs, particularly 
shorter term offerings, to be eligible for student aid. We also urge 
Congress to avoid negative sanctions such as creating more stringent 
standards of satisfactory academic progress or limiting access to aid 
for relatively less well-prepared students.
Promote Innovations that Accelerate Student Progress to Quality 
        Credentials and Outcomes
    <bullet> As described above in LBCC's case, much effective 
innovation is occurring at the local and State level. The Federal 
Government could leverage these developments through a number of 
approaches. These could include providing incentives for innovation and 
for the expansion of evidence-based models through FIPSE, community 
college innovation programs, Higher Education Race to the Top, or other 
initiatives that provide States and institutions with the resources and 
flexibility needed to test, develop, and take successful strategies to 
scale.
Transfer
    <bullet> Substantial benefits accrue the many students who complete 
degree and certificate programs at community colleges. However, for 
many students, attainment of the baccalaureate degree is necessary for 
economic success and a family sustaining job. The increasing premium 
being placed on the baccalaureate degree merits deliberate policies 
focused on helping more community college students continue through to 
receive the Bachelor's Degree (B.A.). For this reason, more reliable 
and efficient pathways to the B.A. degree for community college 
students need to be generated while also insuring that more students 
achieve Associate Degrees and/or certificates on the way. Incentivizing 
State policies such as California's Associate Degree for Transfer (SB 
1440) programs that improve the transfer process between community 
colleges and State universities through streamlined transfer pathways 
and the elimination of excess credit units will increase the number of 
minority students transferring to a 4-year college, improve the 
diversity of universities and increase the number of minority students 
obtaining a B.A.
Align Federal Laws and Regulations
    <bullet> The committee should act to align Federal laws related to 
higher education and workforce preparation--HEA, ESEA, Perkins, WIA--so 
that requirements (e.g., eligibility, reporting requirements, 
performance metrics) do not add unnecessary compliance costs for 
institutions and allow for greater transparency in programs 
performance, while promoting system-level student success innovations. 
The current set of overlapping and conflicting requirements is a 
serious drag on the higher education system. We strongly support the 
ongoing effort by members of this committee to reduce Federal 
regulations on higher education institutions.

    Senator Hagan. Mr. Oakley, thank you very much for your 
opening statement.
    Dr. DeSousa from Fayetteville State University.

STATEMENT OF D. JASON DeSOUSA, Ed.D., ASSISTANT VICE CHANCELLOR 
     OF STUDENT RETENTION, FAYETTEVILLE STATE UNIVERSITY, 
                        FAYETTEVILLE, NC

    Mr. DeSousa. Good morning, Chairwoman Hagan, Ranking Member 
Paul, Senator Burr, and distinguished members of the Senate 
Health, Education, Labor, and Pensions Committee. Thank you for 
inviting me to testify about student success and best practices 
that are being implemented at Fayetteville State University.
    I am a proud graduate of Morgan State University in 
Baltimore, MD. As an undergraduate, the enriching educational 
experiences, effective mentoring, and supportive campus 
environment helped shape the person I am today. I would be 
remiss if I did not mention the role of my academic advisor, 
Ms. Margaret Barton, who set the very highest levels of 
academic and personal expectations for others and me. I believe 
that every HBCU in this country has a Margaret Barton, one who 
academically challenges students yet nurtures and supports 
them.
    My career in education includes several stints in seven 
public and private HBCUs in the country. Fayetteville State 
University is comprehensive, regional, constituent institution 
of the University of North Carolina. At Fayetteville State 
University, 66 percent of the students are African American, 5 
percent Hispanic, 75 percent Pell eligible, 20 percent military 
affiliated, the highest percentage of total enrollment in the 
University of North Carolina system. In addition, nearly half 
are adult learners, and 95 percent of our students are in-
State, most of whom come from the rural regions of North 
Carolina.
    At FSU, African American males represent the lowest 
performing campus subgroup. We are making strides in turning 
that around. On average, during the period of 2005 to 2010, 
male students have accounted for 36 percent of our first-year, 
first-time students in contrast to females. The average rate at 
which males persisted to graduation during such periods and for 
which 4-year data were available was 10 percent, demonstrating 
that FSU attracted a small proportion of men and, more 
troubling, graduating them at lower rates.
    Because most academic performance measures showed that 
males were underperforming, FSU was intentional about 
initiating a set of student success interventions for male 
students, starting in 2012 with a unique assistant vice 
chancellor for student retention and male initiative position, 
a coordinator for academic resources, supplemental instruction, 
program associate, and a cadre of peer tutors help along with 
the program.
    FSU's major male initiative, the MILE, Male Initiative on 
Leadership and Excellence, takes advantage of over $400,000 in 
title III funds to develop targeted student success initiatives 
and practices. In its initial year, the initiative helped 
increase retention rates of males from 67 percent in 2010 to 74 
percent in 2011.
    In addition to its emphasis on academic success, the 
university's male initiative now focuses on financial literacy, 
a desired educational outcome for the university, through a new 
summer course entitled Black Men Banking on Their Future, a 
hybrid course which has a field component on Wall Street in New 
York City. FSU male initiatives helped attract a College Access 
Grant from the University of North Carolina General 
Administration. We were one of five institutions to receive the 
grant for the purpose of strengthening minority male mentoring.
    We have a very strong relationship with Fayetteville Tech 
Community College through a specialized grant from The Links. 
Through this Links grant, we're able to partner Fayetteville 
Tech Community College's male initiative with the Bronco MILE, 
Fayetteville State University's male initiative, and have 
realized important gains in terms of creating expectations that 
will improve the rates at which transfer students from 
Fayetteville Tech Community College come to Fayetteville State 
University. Many HBCUs are improving African American male 
college completion rates through similar innovative programs, 
including the Morgan State University MILE and the North 
Carolina Central University Centennial program.
    Fayetteville State University is working very hard to 
ensure Federal investments are yielding high returns. 
Additionally, we are doing our part to leverage resources by 
partnering with majority institutions and others to provide 
greater academic support services to our students.
    I look forward to answering your questions.
    [The prepared statement of Mr. DeSousa follows:]
             Prepared Statement of D. Jason DeSousa, Ed.D.
                              introduction
    Good morning. Chairwoman Hagan, Ranking Member Paul, and 
distinguished members of the Senate Health, Education, Labor and 
Pensions Committee, my name is Dr. D. Jason DeSousa, assistant vice 
chancellor of Student Retention for Fayetteville State University 
(FSU). Thank you for inviting me to testify about student success and 
the best practices that are being implemented at FSU.
    Additionally, please allow me to thank Fayetteville State 
University's Chancellor James Anderson and Provost Jon Young for the 
support and resources that they have provided me to implement practices 
that undergird student success for the University's students. I would 
be remiss if I did not thank Dr. George D. Kuh, Indiana University 
Professor Emeritus of Higher Education, for guiding and mentoring me 
through graduate school at Indiana University.
    I am a proud graduate of Morgan State University, an HBCU in the 
State of Maryland. As an undergraduate, the enriching educational 
experiences, effective mentoring, and supportive campus environment, 
helped shape the person I am today. Based on my high school performance 
and standardized test scores, I was fortunate enough to be accepted to 
Morgan State University. It was Morgan's ``talent development'' 
philosophy that inspired my confidence and motivated me to be a 
resilient student with superb habits of the mind--habits that prepared 
me for graduate school at Bowling Green State University (Bowling 
Green, OH) and Indiana University Bloomington (Bloomington, IN). I 
would be remiss if I did not mention the role of my academic adviser, 
Mrs. Margaret Barton, who set the very highest levels of academic and 
personal expectations for others and me. Every HBCU has a Margaret 
Barton--one who academically challenges students yet nurtures and 
supports them.
    My career in education includes several stints on seven public and 
private HBCU campuses. On those campuses, the enrollments ranged from 
850 to 9,000 and I have seen first hand what works and where resources 
are needed to gain more success. I hope you will leave today with a 
better understanding of what we are doing at Fayetteville State to 
create success for all students and in particular for those who 
traditionally underperform or face significant challenges as non-
traditional students.
              background on fayetteville state university
    Fayetteville State University (FSU) is a comprehensive, regional 
constituent institution of the University of North Carolina. Founded in 
1867 to prepare teachers for the children of recently freed slaves, the 
core aspect of FSU's mission is to ``. . . promote the educational, 
social, cultural, and economic transformation of southeastern North 
Carolina and beyond.'' The institution continues to serve its original 
purpose and mission to provide quality education to underserved 
populations. The student population demographic is 66 percent African 
American, 5 percent Hispanic, 75 percent Pell eligible, and 20 percent 
military-affiliated (the highest percentage of students (of total 
enrollment) in the UNC system). In addition, nearly half (49.2 percent) 
are adult learners and 95 percent of our students are in-State most of 
whom come from the region which is largely rural.
    FSU has six Strategic Priorities, with ``Retention and Graduation'' 
expressed as its first priority. Given our emphasis on student access, 
success, and persistence to graduation, this year the Washington, DC-
based ``Institute for Higher Education Policy'' named FSU as an 
``Exemplar Institution for Access and Success'' for its commitment to 
high-impact access and success practices that are particularly targeted 
to improve underserved North Carolina populations. (FSU joins 
California State University-Northridge, Florida State University, and 
Miami Dade College in this distinction.)
    Some of the University's ``Points of Distinction'' include the 
following:

    1. The University of North Carolina General Administration's 
``Teacher Quality Impact Study'' listed FSU's School of Education as 
producing highly effective teachers of science and English.
    2. As of 2012, FSU enjoys the distinction of being the only UNC 
institution to house on its campus an International Early College High 
School.
    3. FSU is one of 20 high performing institutions, with higher-than-
predicted graduation rates according to the Indiana University-based 
National Survey of Student Engagement (NSSE) Institute. FSU joins other 
high performing schools such as Macalester College, Miami University of 
Ohio, University of Kansas, University of Texas El Paso, and University 
of Michigan.
    4. The University actively supports the military by developing 
specialized online courses and offering classes on military 
installations in North Carolina and Fort Sam Houston in Texas.

    The university has a longstanding commitment to student success 
with an institutional culture characterized by academic challenge and 
support. Student success and achievement initiatives include increasing 
admission standards, policy changes, strengthened academic support and 
advisement, and implementation of support programs for under-
represented groups, consistent data analysis.
     Best Practices and Innovation at Fayetteville State University
    At FSU, African American males represent the lowest performing 
campus sub group. We are making strides in turning that around. On 
average, during the period of 2005 to 2010, male students have 
accounted for 36 percent of first-time, first-year students in contrast 
to females. The average rate at which males persisted to graduation 
during such periods and for which 4-year data were available was 10 
percent, demonstrating FSU attracted a small proportion of men and, 
more troubling, graduated them at lower rates. Because most academic 
performance measures showed that males were underperforming, FSU was 
intentional about initiating a set of student success interventions for 
male students, starting in spring 2012, with a unique ``Assistant Vice 
Chancellor for Student Retention and Male Initiative'' (AVC) position. 
A Coordinator for Academic Resources, Supplemental Instructor, Program 
Associate, and a cadre of peer tutors and mentors augment the senior-
level Academic Affairs position.
    FSU's male initiatives--the ``Male Initiative on Leadership and 
Excellence'' (MILE) and the ``Boosting Bronco Brothers Transition to 
FSU Initiative'' (B3)--take advantage of over $400,000 in title III 
funds to develop targeted student success initiatives and practices. 
Taken together, the MILE and B3 serve 205 males, which represents 18.4 
percent of the target group of first-time male freshmen (1,114) or 12.3 
percent of the total male student population at FSU (1,667).
    In its initial year, the initiatives helped increase the fall-to-
fall retention of males from 67 percent in 2010 to 74 percent in 2011, 
a 7-percentage point increase. As was stated earlier, males who 
participate in the BRONCO MILE program were retained at a significantly 
higher rate (84 percent) than non-participants (66 percent). In 
addition to its emphasis on academic success, the University's male 
initiatives now focuses on financial literacy--a desired institutional 
outcome--through a new summer course entitled ``Black Men Banking on 
Their Future,'' a hybrid-type course, which has a field study component 
on Wall Street in New York City, NY. FSU's male initiatives helped 
attract a College Access Challenge Grant from the University of North 
Carolina General Administration (system office)--only one of five 
institutions to receive the grant for the purpose of strengthening male 
mentoring.
    FSU's strong relationship with Fayetteville Technical Community 
College (FTCC) has enabled both institutions to take their male 
initiatives to a more innovative level. Through The Links, Inc., FSU 
and FTCC have been collaborating over the past 2 years to better 
increase transfer rates from FTCC to FSU. FTCC's ``Male Mentoring 
Program'' and FSU's MILE now partner to create opportunities for men of 
color transferring to FSU to connect with a MILE peer mentor before 
entering FSU. While the initial grant did not require both male 
initiatives to partner together, Chancellor Anderson and FTCC President 
Larry Keen insisted on this innovative practice, which has been 
yielding positive results.
    Accordingly, many HBCUs are improving African American male college 
completion rates through similar innovative programs, including the 
Morgan State University MILE and the North Carolina Central University 
Centennial Scholars.
            other innovations that undergird student success
    In addition to the afore-mentioned initiatives, these additional 
programs have improved access and success for underserved populations 
at FSU: (1) Faculty Development; (2) Collegiate Learning Assessment; 
(3) CHEER Scholars Program; (4) Learning Communities; (5) Student Fairs 
for Selecting Majors; (6) Academic Support--Learning Center, 
Supplemental Instruction; and (7) Pre-College Outreach. I will expound 
here on just a few of these.

    <bullet> CHEER Scholars Program (Creating Higher Expectations for 
Educational Readiness), which began in 2002, is a residential summer 
bridge for incoming freshmen who do not fully meet FSU's admission 
standards. Serving 20 percent to 25 percent of FSU's first-year 
students each year, the program provides college access to students who 
perform poorly on standardized tests. Studies indicate that high school 
GPA is a strong predictor of college success, while standardized tests 
(SAT and ACT) are poor predictors, yet those tests continue to be the 
cause of denying college admission to good students. From 2008-12, over 
99 percent of CHEER participants (549 out of 554), all of whom were 
denied full admission due to standardized test scores, earned a C or 
better in both summer courses, allowing full-time enrollment in the 
fall.
    <bullet> Female Students find support through two unique programs: 
``Saving Our Sisters'' (SOS) and ``Strong Sisters Soaring'' (S\3\). 
These programs provide academic support for first-year females who were 
admitted on a provisional basis because of low GPA and/or test scores. 
The latter is an initiative designed to address health issues for 
women.
    <bullet> Learning communities are sets of linked courses, usually 
exploring a common theme. Instructors in learning communities work 
together to develop the theme and coordinate the course content. 
Students enroll in all of the courses linked through the learning 
community. By linking together students, faculty, and courses, learning 
communities create more opportunities for enrichment, interaction, and 
exploration. For the last two decades the research on learning 
communities indicates that when they are structured effectively they 
almost always have a positive impact. Since 2009, nearly 80 percent of 
entering freshmen have participated in learning communities each year. 
Learning community participants at FSU have higher GPA's than students 
who are not in learning communities (2.5 to 2.04 in fall 2012) and 
return for the second year at a higher rate than students who are not 
in learning communities (75.4 percent to 60 percent).
    <bullet> As it relates to pre-college outreach, the Office of 
College Access Programs provides a broad range of high-quality college 
preparatory services annually to an average of 3,000 youth low-income/
first-generation students, their parents and professional development 
services for educators who teach at Title I Schools. The Office 
includes national youth programs Gaining Early Awareness for 
Undergraduate Programs (GEAR UP), Talent Search, Upward Bound, Upward 
Bound Math & Science and 21st Century Community Learning Centers. In 
addition, AmeriCorps VISTA (Volunteers In Service to America), an anti-
poverty program, is housed in the Office of College Access Programs to 
provide capacity building for mobilizing local resources to achieve 
sustainable solutions. Ninety percent (90 percent) of the students are 
of color with graduation rates of 91 percent and college placement 
rates of 75 percent.
    <bullet> Financial aid education is also a major priority for this 
population of students. Financial aid education begins prior to 
enrollment with the FIRST STEPS program. FIRST STEPS is a program that 
helps prospective first-time students and their families take the first 
steps toward success at FSU, to include placement testing, advisement, 
registration, and financial aid counseling. During the financial aid 
counseling, students and families discuss decisionmaking related to 
financing their college education, including instruction on debt-
burden, financial literacy, and true cost of education. Once enrolled 
the priority order of financial aid packaging is always free money 
(grants, scholarships); loans are packaged last as needed up to one's 
cost of attendance. Where loans are offered, students must go online to 
accept and if a new borrower (entrance counseling has to be completed) 
before funds will disburse. New initiatives in planning for academic 
year 2014-15 are: in person loan counseling sessions (schools did this 
before automation), and hiring of a Default Manager (many schools are 
going this route with the new default guidelines).
                               conclusion
    Fayetteville State University is working hard to ensure Federal 
investments are yielding high returns. Additionally, we are doing our 
part to leverage resources by partnering with majority institutions and 
others to provide greater academic support services to our students. I 
look forward to answering your questions.
    Thank you.

    Senator Hagan. Thank you, Dr. DeSousa.
    Dr. Bassett, president of Heritage University.

    STATEMENT OF JOHN BASSETT, Ph.D., PRESIDENT OF HERITAGE 
                   UNIVERSITY, TOPPENISH, WA

    Mr. Bassett. Thank you, Senator Hagan and Senator Burr--
great years in North Carolina, although I did have to tell 
Senator Warren this morning that immediately before Washington, 
I was in Massachusetts for 10 years--never could keep a job, 
you know, always moving around.
    Senator Murray introduced Heritage University so well I 
wasn't quite sure I had anything left to say, except that when 
people say, ``Well, what is Heritage?'' I say, ``Well, it's 
only had one president. She's a Catholic nun, but it's not a 
Catholic school, and it is on tribal land, but it's not a 
tribal school.'' Well, what in the world is it?
    It's a private university that was established about 32 
years ago, not where Fort Wright was. That was in Spokane. But 
it did have a kind of branch in the Yakima Valley. Two Native 
American women, when Fort Wright folded, said, ``There's no 
place to educate our teachers,'' and they started a new 
college.
    Now, that's kind of hard to believe right now. How in the 
world do you start a new college that way? They raised money. 
They got land. They got some influential trustees, and they 
told Sister Kathleen Ross, who was the provost in Fort Wright 
then as it closed, that she had to be the first president.
    So 28 years later, she handed off her baby to somebody 
coming in from Massachusetts. It's a remarkable place. The 
Yakima Valley is a great agricultural valley, where all your 
apples come from. We grow the hops and so forth. That's really 
what has led to the student population being about 55 percent 
Mexican American and about 10 percent to 15 percent Native 
American with the population on the Yakama Reservation.
    The educational attainment in the valley is low, 
particularly the lower valley, which doesn't include the city 
of Yakima, as the upper valley. It includes a great deal of 
poverty. Only 6 percent of the adults in the lower valley have 
a bachelor's degree. Appalachia is 12 percent by comparison. 
The students grow up there with people telling them for one 
reason or another what they can't do. ``Well, your people don't 
do that sort of thing? What is it that you think you're 
doing?''
    Over and over again, we meet a person that's been told by 
counselors, you know, ``You're very good with your hands, 
Juanita. You might think about beauty school.'' Now, I have 
nothing against beauty schools, but these Juanitas are capable 
of being brain surgeons, and they've been told all their life 
what they can't do, what the limitations are.
    When I arrived at Heritage, I felt that as wonderful as it 
was, anecdotally, statistically, it wasn't performing the way 
it should. We've made a number of investments to improve 
performance in the last couple of years. One is to really 
increase the intentional tutoring and advising of all of our 
students. That individual attention, building on TRIO and CAMP 
programs too, is making a huge difference.
    Second is attaching them to a major and a dream earlier. We 
find that almost all the students that drop out really don't 
have a clear image of themselves being an airline pilot or a 
doctor, lawyer, business person, or whatever it is.
    Third is changing the financial aid formula to a more 
equitable formula so that more students can go. Fourth is 
raising expectations, creating a culture of higher 
expectations. The worst thing we can do is lower the bar for 
students. These students have amazing potential. Yes, they've 
been educationally disadvantaged, but they have wonderful 
potential.
    Over and over again, I see students--a young woman named 
Brenda who dropped out of school, had a baby, and was working 
in the fields. Somebody said, ``Why are you doing this? You're 
a smart young woman.'' And they got her to go back and get a 
GED, get a college degree. She graduates from Heritage, takes a 
couple of corporate jobs in the East, and is now managing a lot 
of the international marketing for St. Michelle Wineries.
    I could tell the same story about people now with 
managerial positions at Costco, Walmart, and many other 
corporations like that, or holding excellent teaching 
positions. Our residency-based teacher training program is 
recognized maybe as the best in the State, and the teachers are 
culturally sensitive to the kinds of students in the classroom.
    A couple of comments about the particular populations we 
have. The Hispanic population--very family-oriented. Students 
don't go to college. Families go to college. In fact, we know 
if we don't get out in the valley and reach the kids when 
they're this age, working with their families, we're always 
going to be fighting a rear guard action.
    In order to improve statistically the performance in the 
valley, we need to get everybody up. The Native American 
population--much more reserved, harder to build up trust with 
that population, wonderful abilities there. We find cohorting 
that group, having them study in groups at least for the 
freshman year of students with like backgrounds and like 
interests, can make a huge difference in their long-term 
success. But raising the bar, providing a lot of support--these 
things make a huge difference for our populations. Thank you 
very much.
    [The prepared statement of Mr. Bassett follows:]
               Prepared Statement of John Bassett, Ph.D.
                                summary
    Heritage University is a private commuter university on Reservation 
land deeded from the Yakama Nation. Only 32 years old, it has about 
1,000 undergraduates of whom 55 percent are Hispanic, mostly children 
of Mexican farm workers, and 10-15 percent Native, the others a mix. 
The mission is to provide high quality higher education to a population 
largely underserved, since there is no other 4-year college for miles. 
It has 400 graduate students, mostly in Education. The undergraduates 
are 90 percent Pell-eligible, 80 percent first gen; the average family 
ability to pay is $150. The average parent has a 6th grade education. 
Educational attainment in the Yakima Valley is low, but the 
intelligence and potential of the young people are great.
    In my 4 years we have taken a number of steps to improve completion 
and success rates: (1) improved financial aid practices so through an 
equity-based formula more students can stay in school; (2) added 
professional support staff for tutoring and advising to build further 
on successful TRIO and CAMP programs; (3) built a culture of high 
expectations, for the worst thing is to let these talented students, 
through misplaced compassion, graduate by getting over a low bar; (4) 
hired more full-time (not less expensive adjuncts) faculty who are 
there all week for the students; (5) encouraged students to identify an 
area of study sooner, since students who drop out--usually because of 
competing pressures in their life--invariably have not identified a 
field of study or a dream to have as a goal; (6) changed admission 
practices to be more certain that students who matriculate are at a 
point of their life when they can do the hard work to succeed; (7) 
built faculty agreement that they must take attendance and report red 
flags quickly to allow intervention; and (8) started enrolling students 
in cohorts that take classes together so they can have a peer group 
with whom they are closely engaged.
    Success stories are remarkable. Our teacher prep program, honored 
at Federal and State levels, is a national model and has a 90 percent+ 
placement rate. Our business program shows amazing transformational 
stories of inarticulate freshmen lacking confidence in themselves going 
out as eloquent, confident seniors with Fortune 500 companies seeking 
to hire them. Successes include students like Brenda, a dropout from a 
culture of poverty and gangs. She had a baby but no dreams until a 
mentor encouraged her through the GED and college. She went on to good 
jobs on the east coast and now manages a lot of the international 
marketing for St Michelle Winery. Similar students hold managerial jobs 
at Costco, Walmart, and elsewhere. Haydee received her diploma 
Saturday; 3 years ago you would have given her no chance to have so 
many companies trying to hire her. Haver Jim, a 43-year-old Yakama 
native who entered with a not uncommon distrust of western education, 
has become quite a success story and received his diploma Saturday. He 
is taking many skills back to his people. I have essays in my iPAD from 
graduating students--one Native, one Latina--who came out of cultures 
of drugs, gangs, and poverty and who because of TRIO and University 
support are headed to great careers.
    The cultures are very different, although poverty and lack of 
personal dreams are common traits. Native students, like their elders, 
have a deep natural reserve; they are often not forthcoming. It can 
take a long time to buildup trust with them. These are a community-
focused, less individualistic people, yet they can be good business 
people. Unlike the agriculture-centered Mexican immigrants, they are a 
fishing people (also hunters and gatherers). They are a people with a 
more rooted and organic sense of their relationship to the land, which 
they protect like a family member. They have amazing talents.
    While family is important for Indians, I would say that family is 
the first issue to address with the Mexican population; students do not 
go to Heritage, families go. You need to have family support for 
Juanita or Jose to succeed at Heritage; and sometimes parents say, ``If 
you were not in college but picking apples, we could have meat on the 
table.'' Heritage knows it must reach children and their families when 
the kids are little and give them a sense of dreams and opportunities; 
otherwise over half will be gone before 12th grade and enormous 
potential lost to America.
                                 ______
                                 
    Heritage University was established in 1982 by two Native American 
(Yakama) women and Sister Kathleen Ross, a member of the Order of the 
Holy Names of Jesus and Mary who had been Provost of Fort Wright 
College. That institution had gone out of business, leaving the south 
central part of the State of Washington with no teacher-training 
program for the region. It is hard to imagine starting a private 
college the way Heritage started and also hard to imagine there was and 
is no other 4-year college within 70 miles of Toppenish in any 
direction. Heritage is located on tribal land (deeded to the 
University) of the Yakama Nation, the only college on reservation land 
that is not a tribal college.
    Starting as a program in Education with 50-100 students on an 
impossibly tight budget, Heritage now has close to 1,000 undergraduates 
and 400 graduate students (mostly in Education), and a diverse set of 
majors. Its mission for almost its entire existence has been to provide 
higher education opportunities to an educationally disadvantaged and 
largely place-bound population. In its early years it had about the 
same number of Native and Hispanic students. Because of the large 
growth of Hispanic peoples, mostly Mexican-American farm workers, 
undergraduates are now about 55 percent Hispanic and 10-12 percent 
Native American. The rest are a mixture of everything else. There is 
currently capacity and planning to grow to 2,000 undergraduates and 
1,000 graduate students.
    About 90 percent of the undergraduates are Pell-grant eligible, a 
percentage matched at perhaps no other private college. About 75-80 
percent of the students are first in their family to attend college and 
fewer than 10 percent have a college graduate as a parent. The average 
family ability to pay (on the FAFSA form) is only $150. So tuition is 
covered by Pell and State need-based grants, philanthropy, and loans. 
Heritage tries to manage student loan burdens through equity-packaging 
of aid; but most of the upper classmen are transfers from community 
colleges and often arrive with large burdens.
    Heritage is a commuter campus without residence halls but with 
three regional sites on community college campuses elsewhere in the 
State. These take only transfer students. Many young people grow up in 
our Yakima Valley with no sense of a future, no ability to see 
themselves as an airline pilot, scientist, business owner, or doctor. 
Our Upper Valley includes the city of Yakima, which has poverty but 
also wealth. The Lower Valley is very poor and only 6 percent of the 
adults there have a bachelors degree (Appalachia is 12 percent). In the 
Lower Valley half the kids are gone from school before 12th grade to 
join a gang or have a baby or give up. The Reservation, moreover, like 
many reservations also includes a great deal of hopelessness. Our 
redefined mission at Heritage includes intentional strategies to reach 
children and their families at an early age, to help youth dream and to 
know the opportunities that are out there for anyone who is willing to 
work hard. Otherwise Heritage will always be treading water instead of 
effecting the major improvement in the region that is its goal.
    I have been at Heritage 4 years. When I arrived, I realized 
Heritage scored badly on IPEDS graduation scores but also realized 
IPEDS covered only a teeny part of our population since many of our 
students were part-time students, most of our juniors were transfer 
students, and because our students' personal and economic conditions 
led to stop-out-and-return patterns that made 10-year graduation rates 
significantly better than 6-year rates.
    To improve results, however, we have made several major changes. 
First a totally new admissions office is making sure that students who 
matriculate are ready to do the hard work needed to succeed. Second, a 
major investment in professional student support, advising and tutoring 
includes enhancement of the successful TRIO and CAMP programs. Students 
who get support in these programs, as well as those who get solid 
intentional tutoring elsewhere, have a much higher graduation rate than 
other students. Young people from the Yakima Valley can do anything a 
kid from Chevy Chase can do (I was a kid from Chevy Chase); they need 
more support because the Valley leaves them educationally behind. But 
the worst thing a teacher or adviser can do is let them graduate by 
getting over a low bar. If a Heritage graduate cannot compete 
effectively with a grad from Washington State or the University of 
Washington we are wasting our time.
    Third we have developed a culture of high expectations, not always 
an easy transition for teacher or student. Fourth, we have invested in 
more full-time faculty who are there for the students all week, as 
part-time adjuncts cannot be. Fifth, we have deliberately tried to 
broaden our student base to include more students who enter college 
with a clearer sense of ambitions and opportunities to help build on 
campus a culture of completion and success, not just a culture of 
access. Sixth, having learned that students who drop out generally have 
not committed themselves to a major or program, we are trying to 
connect freshmen to an area of interest if not a major and to show them 
how that passion can lead to a productive career. Seventh, we are 
working more and more with cohorts, with groupings of students who take 
classes together and thereby become more engaged with their studies and 
programs because they bond with their shared group. Eighth, faculty 
members have agreed to take attendance regularly and to forward to the 
Dean of Students all red flags related to absence or poor performance. 
Ninth, we have improved our financial aid packaging to a more equitable 
formula that increases the number of students who can afford to stay in 
school.
    The success stories at Heritage are what make almost everyone at 
the University love to come to work in the morning. Never have I seen a 
place where teachers are more dedicated to their students; and that is 
one reason I could forego retirement and have an encore career in the 
west. Our teacher prep program is a residency based (junior and senior 
years) program honored by the U.S. Department of Education and called 
by some in Olympia the best program in the State. Its placement rate is 
over 90 percent; and schools love the fact that the graduates are not 
only excellent teachers but have a culturally sensitive dimension for 
the region's diverse populations that no other program provides.
    Some of the most amazing results are in our Business program. 
Professor Len Black provides a tough-love program for hard-working 
students and also has built a student team over the last decade that 
takes part every year in the SIFE (Students in Free Enterprise) Program 
that is now called Enactus. The team makes presentations in a regional, 
then a national competition about projects the group has done (for 
example, financial literacy for middle school kids; helping Mexican-
American farmers start and market their new business; helping women in 
Belize use recycled products to make baskets). The presentations are 
judged by teams of corporate executives. What is unusual about the 
Heritage team, unlike others, is that the students are often second-
language learners; they come from apple orchards and hop fields; as 
freshmen they were often inarticulate and totally lacked confidence. 
Now they are eloquent, educated, and confident. Fortune 500 companies 
are knocking at their door to hire them. Education there is 
transformative. The Heritage team, moreover, this year finished third 
in the entire nation against the likes of Syracuse and other national 
universities; four times in the last decade they have finished in the 
final four.
    I think of so many examples of success. Brenda, a Mexican-American 
high school dropout from a culture of poverty but with a baby and no 
plans for a future, was encouraged by a mentor to go back and get her 
GED and then go on to college. After graduating from Heritage she went 
on to corporate positions in the east and now is back in Washington 
managing the marketing for St Michelle Wineries in that part of the 
world. I think of similar stories of young people who came from poverty 
and hold excellent positions at Costco or Walmart or another major 
company. Last weekend I gave a diploma to Haydee, one of the stars of 
the Enactus team with a great business career ahead of her. Three years 
ago I could hardly have imagined that with faculty guidance and her own 
determination she would be such a confident, capable, and eloquent 
future leader. I think of Crystal, a Native American with a similar 
story who completed Heritage, then finished a masters at Gonzaga, and 
later served as my chief of staff. Finally I lost her because she 
wanted to return to the Yakama Nation and help her people by taking a 
position managing its real estate purchases and sales. Now she is 
pursuing a doctoral degree as well. I think of Haver Jim, who just 
received his diploma. He is about 43 years old and entered several 
years ago with the not uncommon Indian suspicions of white man's 
education (they sent my daddy to boarding school, destroyed our 
culture, would not let us use our language) and became a very important 
part of the campus culture. He is bringing many skills back to his 
people as a leader. I have in my iPad essays by a Native American and a 
Mexican American student just graduating with the assistance of TRIO 
tutors. Both of them fought through youths in a culture of poverty, 
drugs, gangs, and low expectations. Both are graduating with honors and 
going on to a good job or graduate school.
    The cultures are very different, and they have not always played 
nicely in the sandbox together. The Native American population at times 
has thought they were having a second colonial invasion--first the 
Anglos, now the Mexicans. The Yakama were traditionally a fishing 
population and hunters and gatherers. The Mexican population there has 
been largely agricultural. That leads to very different notions about 
water usage. Cultural practices differ. The Heritage campus is one of 
the few places in the region where the Mexican, Yakama, and white (the 
population with most of the wealth) can actually come together in civil 
discourse; and for many reasons the intercultural relations are better 
now than they used to be.
    Our Native American students, like the Yakama adults, have a deep 
reserve that non-Indians may take a long time to appreciate. It can 
take a long time to buildup trust. More than any other group they can 
benefit in the first year from a cohort approach in which students take 
classes together and buildup mutual confidence and a mutual support 
group. The Native students often, moreover, believe they have to miss 
class, for example, for a family funeral that may last a week. Faculty 
members have a hard time figuring out how to balance academic and 
cultural values with these students. If a faculty and administration 
have patience, however, they can build strong partnerships over time 
with their Native populations.
    I mentioned earlier the distrust many people in the older 
generation of Indians feel toward western education. There is a strong 
younger group, however, in their 30's or early 40's who want to retain 
many values of their elders but understand the need for a 21st century 
education to help the tribe be successful. They have a greater sense of 
oneness, wholeness, with their land and environment than other peoples 
do; but they insist on good science and relevant technology. They are 
very community-focused, interested in the common good more than 
individualistic goods, but they can be excellent businessmen and women.
    Our Mexican-American students are very family-focused. This does 
not mean the Yakama people are not, although the term ``family'' may 
have a fuzzier definition in our minds as they use it than it does for 
Mexicans. ``My younger brother'' is a term that may be meant seriously 
by an Indian but not refer to a blood tie, although family is important 
for both populations. For Mexican-Americans, though, getting belief 
within the family in the importance of education for youth will triple 
the likelihood of a young person completing high school and college. 
While some families are supportive, others see college interfering with 
putting meat on the family table. I also have to add that I have not 
yet seen a person from these cultures of poverty who escaped, and by 
that I mean completed high school and at least a 2-year college degree, 
without a mentor urging him or her forward. It might be a family member 
or teacher or just another supportive adult able to bring young people 
back to the right path and give them confidence in their potential.
    What one finds in our Valley are young people who have been told 
all their life what they cannot do: ``Your people don't do that kind of 
thing'' (become a doctor or scientist or engineer). We have students 
who were continually told ``You are good with your hands, Juanita, so 
you might think about beauty school.'' I have nothing against beauty 
schools, but we are talking about someone who turns out to have the 
ability to be a brain surgeon.
    How much of what I am discussing is grounded in poverty rather than 
ethnic identity? A lot of it, to be sure, but nonetheless there is 
still a great deal of correlation between economic and ethnic 
indicators in America. African American populations have, of course, a 
longer and more complex historical context that others here will cover 
more thoroughly than I. Native Americans have a different but also 
specific and complex historical context and a Reservation culture that 
very much needs an educational partnership between tribal education, 
including tribal colleges, and sympathetic mainstream education.
    The Hispanic challenge differs because of the rapid and widespread 
recent growth of the Latino population in the United States. In our 
region immigration, itself a complicating factor for better or worse, 
has been largely of low-income and low-education workers and their 
families, yet smart and talented people with enormous potential--and 
unlike middle-class American students no sense of entitlement that the 
world owes them everything. Their potential, and the wasted potential, 
reminds us all that unless we face the crisis of low expectations and 
underachievement in our K-12 world, higher education is never going to 
do all the things in America we would like it to.
    There are surely financial issues to consider as well. We worry a 
lot about the cost of tuition and affordability, although surely there 
is as great a range in the market between Ivy League tuitions (which 
research shows are well worth it given lifetime earnings of graduates) 
and community college and local 4-year-public-college tuitions as there 
is between an Aston Martin and a Chevrolet. Often the more expensive 
the school the more financial aid is available, although in truth it is 
the middle-income student who gets blocked out of the well-known 
private colleges: not wealthy enough to pay nor poor enough to get a 
big aid package.
    Almost all students at Heritage who graduate do so without having a 
larger debt burden than the 25-30K range, manageable for most graduates 
to repay if not for those who have the burden but do not graduate.
    I want to focus at the end, however, on one financial issue that 
hampers our Hispanic and Native students greatly but also HBCU students 
and poor white students. That results from the number of pre-college or 
remedial courses they must take to come up to the level of the Math 101 
or English 101 college-level course. They use their Pell grant and 
State need-based grants to pay for these courses as well as others, but 
these courses do not count toward graduation because they are beneath 
college level. When these students become juniors and seniors they find 
they have run out of their financial aid, and their university may not 
have the resources to cover everything with institutional funds. 
Heritage may be unusual as a 4-year school in the large percentage of 
its students facing this crisis. Most such students may well be in 2-
year colleges where they will not use up 4 years of funding; but they 
will face a crisis if they transfer later for a bachelors degree. Some 
national or State strategies will be needed to help students reach 
college-level coursework without a major risk to their future.

    Senator Hagan. Just listening to the opening testimony, I 
know we're going to have an incredible question and answer 
discussion period going on today. Thank you for all that you're 
doing on behalf of the minority serving institutions, because a 
mind is a terrible thing to waste, and we must be investing in 
it. I appreciate your testimony.
    I did want to start with the questions, and we'll have 5-
minute questions, and we'll go back and forth.
    Dr. DeSousa, we know that we've got to provide better 
support service to help our African American males succeed and 
graduate. You opened with your MILE program. You were 
discussing it, and it obviously is a work in progress, but it's 
been successful.
    Can you talk a little bit more about how you actually go 
into high schools, how you talk to families, how you work to be 
sure, and then the measurements that you're looking at to be 
sure that you are successful?
    Mr. DeSousa. Thank you, Senator Hagan. May I start my 
response by saying that one of the features of the MILE is 
getting young men from Fayetteville State University outside of 
North Carolina, making the United States of America the 
classroom, so moving beyond the traditional bricks and mortar 
of the campus.
    I'll never forget when we took a group of students to Wall 
Street, a young man said to me, ``Dr. DeSousa, I'm going to 
graduate from Fayetteville State University.'' I said, 
``William, why?'' He said, ``Because you see that young man 
across the street? He looks just like me. He's my height. He 
looks my age. He dresses like me, and I want to be a Wall 
Street banker one day.''
    Do you know that William's grade point average over the 
course of four semesters went from a 2.3 to a 3.7 by the mere 
fact of him being able to put in practice something that he can 
see himself in many years from now.
    In Cumberland County, we have great relationships with many 
of the local high schools. The Bronco MILE has become known for 
its bow ties. We go into middle schools and high schools and do 
tutoring, and as a part of that, we teach them how to do bow 
ties. They are just absolutely thrilled about that.
    We work with parents just about every day. We want to keep 
them abreast within the purview of FERPA. We want to see their 
young men, their sons, graduate from Fayetteville State 
University. We have some very targeted initiatives that work 
very closely with parents, middle schools, high schools, and, 
of course, with getting young men outside of the North Carolina 
area, which is a tremendous help to our program and to the 
success rates that we are realizing.
    Senator Hagan. Thank you, Dr. DeSousa.
    Dr. Lomax, in your testimony, I think you also talked about 
the need for travel and different opportunities for students. 
Could you comment on that? And then I also wanted to ask about 
your financial literacy workshops and bank days for students. 
I'm a big believer in the fact that we don't teach financial 
literacy, and we need to be doing this.
    I know that when I was in the State senate in North 
Carolina, I mandated that a course be taught, but we need to do 
more. It's not rocket science. We just don't teach it.
    Mr. Lomax. With respect to the travel programs, UNCF 
provided scholarships to over 12,000 students this year at 900 
colleges and universities. About half of those will be students 
at HBCUs. The first and most important travel opportunity we 
provide to students is travel to and from college.
    Our largest single scholarship program, the one funded by 
Bill and Melinda Gates--1,000 students a year, 17,000 students 
to date, and will be 20,000 when the program ends. So many of 
the young men and women who earn Gates scholarships--I can't 
tell you how competitive these scholarships are. For 1,000 
scholarships, we have 14,000 completed applications. So these 
are the best of the best--35 percent African American, 35 
percent Latino, 15 percent Native American, 15 percent Asian 
Pacific Islander. For so many of these young men and women, 
this is the first time they've had an opportunity to leave 
home.
    They get the opportunity to attend the college of their 
choice. I think just as the president of Heritage has noted, 
and all of my colleagues, this opportunity to see a world 
beyond is what inspires them to work hard and to complete. And 
I might just note on the Gates program, we have a 90 percent 
completion rate for this program, and these are students 
attending the most competitive institutions in the world.
    They've gotten an education at home, sometimes on the 
reservation, sometimes in the inner city, and worked hard. But 
now with this scholarship, they're able to leave home and go 
see a bigger world. The challenge is that that just doesn't 
happen for enough of our kids. So one of the things that we're 
trying to do is to find other ways. Bill and Melinda Gates 
aren't going to pay for everybody to go to college.
    But one of our most exciting innovative programs has been 
one we've done with Citi, which is to teach financial literacy 
by doing. It's a college savings program. We've done this with 
the KIPP Foundation, and we've initiated this at KIPP charter 
schools around the country. These young men and women are 
challenged--they learn about saving and planning for college, 
and they learn by doing. You can give them book learning on 
this, but when they actually have to raise the dollars and we 
match up to $250 a year, then if these students complete this 
program, they have the opportunity to get a scholarship as 
well.
    What we've learned, Senator, is that low-income kids and 
their families know how important college is, and they will 
save. One of the things I'd say is that if we can look at other 
opportunities to learn about matching college savings, we can 
take the burden of all of this being scholarship or debt, and 
they can actually begin to save for college as well.
    Senator Hagan. Thank you.
    Senator Paul.
    Senator Paul. Thank you to everyone on the panel for 
coming.
    Dr. Lomax, one of the things that we've tried to get in 
Kentucky and are still fighting for is charter schools. I'm a 
big fan of them, because, to me, I just sort of see them as 
being equivalent to innovation and allowing people to make 
changes at a more local level. Senator Alexander and I have 
visited some of the KIPP schools in Nashville. I visited with 
some of the students here in DC and have been really amazed at 
the poise, the education, the articulation of their education.
    I was just wondering what your thoughts are and whether or 
not you think that charter schools and school choice, in 
general, is part of getting our kids better prepared for 
college.
    Mr. Lomax. UNCF believes that we're not going to achieve 
our goals of significantly increasing the number of African 
Americans who graduate from college unless we ensure that the 
youngsters who graduate from high school are, in fact, college-
ready. A big part of our message today is that to go to school 
is not just enough. You've really got to get the kind of 
rigorous academic preparation which is going to enable you to 
succeed in college.
    According to the ACT, only 5 percent of African American 
high school graduates are college-ready in the major 
disciplines of math, science, English, and reading, which means 
that they've got a 75 percent chance of earning a C on a 
college level course or a 50 percent chance of earning a B. I 
believe that not all, but a number of the charter schools are 
demonstrating that we can introduce rigorous academic programs 
for kids who come from low-income communities.
    At KIPP this year--and I serve on the KIPP Foundation 
board--we will have 160 charter schools across this country by 
the beginning of the new academic year. This fall, 2,000 
KIPPsters have been admitted to colleges and universities 
across the country. Ten percent of those students have been 
admitted to UNCF member institutions. They are academically 
ready. Seventy-five of them have been admitted to Dillard 
University, where I was president.
    The challenge these kids are going to have, Senator Paul, 
is that they can't finance the education that they have the 
academic opportunity to earn. I would say that what we've 
really got to focus on is both the academic readiness and the 
financial readiness.
    Most of these young people are going to have to rely upon 
Federal financial aid. So the Pell grants have got to do a more 
effective job, and they're going to have to borrow. That's the 
truth. But if they're borrowing at interest rates that--I'll 
give you one example, the Parent-Plus loan. You combine the 
interest rate of 6.4 percent and the origination fee of 4 
percent, it's 10 percent for that loan. The default rate is 
less than 5 percent. So they're paying an interest rate double 
the default rate.
    Why is the interest rate so high? Because they're being 
told that the interest and the origination fee are high because 
the default rate is high. Well, we scrubbed that, and we found 
out that the default rate is not high. The Federal Government 
will earn $66 billion, according to the Government 
Accountability Office, on the Federal loans that are issued 
between 2007 and 2012--$66 billion on the backs of low- and 
moderate-income kids, including the graduates of public charter 
schools.
    Senator Paul. I agree with you that the financial burden is 
a real problem, but it is also, in some ways, a conundrum in 
the sense that when we stimulate the demand and subsidize the 
demand, we elevate the cost, and that has happened now decade 
after decade. Then we come back in on the back end and we have 
to say, ``Well, how do we reduce the cost?''
    Education gets more and more expensive, but we say we want 
everybody to go, so we subsidize people going to college. And 
I'm not saying we can stop doing that. I'm just saying that we 
have to realize that as we subsidize the demand, we put 
pressure on, and we raise cost.
    Just one more thing, and I'll let you respond. We have to 
look at some way of reducing cost. The American Action Forum 
reports that Department of Education paperwork has doubled in 
recent times. It now costs us $2.7 billion in compliance costs.
    We spoke in our office with Phillip Howard from Morehouse, 
who projects that just at Morehouse, it's a seven-digit range, 
in the million dollar range of compliance. We have to figure 
out something--and maybe part of it is excessive paperwork and 
regulation--but realize that it's the pressure pushing things 
up, and then people have to look for ways to clamp down on 
cost.
    Mr. Lomax. Streamlining is something which I think you, 
Senator Alexander, have spoken about with regard to these 
government regulations. And on the side of the institutions--
and I was a college president for 7 years and a college 
professor for 20--I know how hard it was for my students at 
Morehouse and Spelman and at Dillard University to figure out 
the maze, m-a-z-e, of Federal financial aid.
    I think that if you go back and look at the Higher 
Education Act, we could scrub it and remove some of these 
duplicative and oftentimes contradictory expectations. We're 
talking about kids who are oftentimes, like my colleagues have 
noted, the first in their families to attend college. Their 
parents have to have a Ph.D. to figure out how to get the 
Federal financial aid.
    One of the things that needs to happen is that more of the 
folks who have loans today need to convert to income-based 
repayment. There are four different competing income-based 
repayment plans. It's so confusing that now only 25 percent of 
the eligible borrowers are, in fact, opting for something which 
they either don't know about or can't figure out how to manage 
their way through.
    I think some of this could be improved, Senator, by, in 
fact, reviewing and streamlining all these actions that have 
been taken over the last 50 years which have made what was a 
great initiative in this Nation--to support students who are 
pursuing a college education--more effective and efficient.
    Senator Hagan. Thank you.
    Senator Warren.

                      Statement of Senator Warren

    Senator Warren. Thank you, Madam Chairman. Thank you for 
holding this hearing.
    Thank you, Ranking Member Paul.
    And thank you all for being here today. I'd like to go back 
to this question about college loans. The rising cost of 
tuition is causing more and more students to have to take on 
more and more debt, and students of color are being hit the 
hardest. According to the Urban Institute, African Americans 
and Latinos are about twice as likely as other students to have 
loan debt.
    Now, let's be really clear about this loan debt. This is 
not federally subsidized loan debt. In fact, what the numbers 
show is that the Federal Government is making a profit from the 
student loan program. I think you cited the GAO statistics that 
show that just one narrow slice, the loans from 2007 to 2012, 
are on track to produce $66 billion in profits for the U.S. 
Government.
    In other words, young people whose parents can afford to 
write a check for college pay one price, and young people whose 
parents can't afford to pay up front for college and have to 
borrow that money pay a much higher tax in order to go to 
college. They pay more.
    So we're starting to feel the effects of this throughout 
the economy. The Federal Reserve, the Consumer Financial 
Protection Bureau, the Treasury Department have all weighed in, 
talking about the fact that young people are not saving up to 
buy homes. They're not buying homes. They're not buying cars. 
They're not making the move, starting small businesses that we 
would otherwise expect.
    But what I'd like you to do, if you could, for just a 
minute is--you work hard at your institutions--Dr. Lomax, at 
your organization--to give students opportunities so that they 
can realize from higher education an opportunity to build 
something in their own lives, in their communities, and in this 
country. What's the impact on these young students of having 
rising college student loan costs?
    Maybe, Dr. Gasman, you could start.
    Ms. Gasman. Sure. One of the things that we know for sure--
there's countless research that shows us that your income level 
correlates with your chances of graduating. I, personally, am a 
first-generation, low-income student and went to school on a 
Pell grant and took out student loans. So this hits home for 
me.
    A couple of things happened, and I think the rest of the 
panelists can talk about this. If you are on a Pell grant, if 
you're a low-
income student, you don't have a safety net. So when things 
happen, as they do in college, you have nothing to fall back 
on. It's sort of like a family that doesn't have a savings 
account, and they might only have a little bit of money left in 
their checking account. So the situation becomes more volatile.
    There's quite a bit of research. One of my colleagues, 
Camille Charles, at the University of Pennsylvania has done 
research related to how African Americans and low-income 
students, in particular--and this correlates with what you 
said--tend to have more stress in their lives with regard to 
income as well. I think that I would back up what you're saying 
and say that all the research plays out and verifies it.
    Senator Warren. Good. Thank you.
    Dr. DeSousa, did you want to add to this?
    Mr. DeSousa. Senator Warren, yes. Thank you. One of the 
things I'd like to say is that within North Carolina, 
Fayetteville State University is among the most affordable 
institutions to attend. The Fayetteville State University model 
is to give students grants and scholarships first, followed by 
loans if necessary. One of the things we've found, however, is 
that when students get the refund checks, they can--or I should 
say disbursement checks, more appropriately, they could use 
that money frivolously.
    So what we are trying to do through the male initiative is 
if you're interested in a banking on your future course, or if 
you're interested in attending an educationally purposeful 
experience outside the State of North Carolina, you have to 
produce a disbursement plan or, slash, a refund check plan to 
tell us how you intend to use the moneys. Just don't go to the 
mall and spend it.
    You are required to show evidence that you have created a 
savings account. We don't want to know how much is in there, 
but we just want proof that they've created that. I think 
through the male initiative, we're seeing men at Fayetteville 
State University create savings accounts for the first time.
    Senator Warren. That's wonderful to hear.
    Madam Chairman, may I ask Mr. Oakley to respond as well?
    Mr. Oakley. Yes. Thank you, Senator Warren. I think what 
I've heard missing thus far is that we need to begin to reward 
value. Value is the key to under-represented students. Our 
large access public institutions are the gateway to these 
individuals. The California State University system, for 
example, on my campus, in my back door--they are graduating 
over 8,000 students next week. There is great value there, and 
these are predominantly first-generation students receiving a 
great education.
    California State University at Long Beach received over 
83,000 applications for admission this last year, the fifth 
largest in the Nation. We need to reward that kind of value, 
and we need to encourage our young people to seek value so that 
they are not chasing a dream of a $50,000 education that may 
not return to them the value that an education such as our 
public universities offer. So I would say the more we can 
encourage those students and give them an opportunity to attend 
our large access public institutions, the better off they're 
going to be.
    Senator Warren. Thank you very much. And I see that I'm out 
of time. But I do want to thank Dr. Lomax publicly for your 
work on--talking about student loans and the importance of 
reducing student loan rates. I do not believe the Federal 
Government should be making a profit off the backs of our young 
people who are trying to get an education, and I worry about 
how this disproportionately falls hard on students of color.
    Thank you, Madam Chairman.
    Senator Hagan. Thank you.
    Senator Alexander.
    Senator Alexander. Thank you, Madam Chairman. I'm going to 
defer to Senator Burr.
    Senator Hagan. Senator Burr.

                       Statement of Senator Burr

    Senator Burr. Thank you, Senator Alexander.
    Let me again welcome all of our witnesses today. I'm 
reminded as we talk about the fact that the Federal Government 
had $66 billion worth of profits that we turned around, as 
Congress usually does, and we took $8.7 billion of it and we 
spent it on a healthcare plan, not on education.
    We can talk the talk, but we don't always walk the walk, 
and I think you guys are on the front lines. I believe 
searching for every silver bullet that you can find, not to 
build an institution, but to graduate students that are 
marketable in the 21st century. That's what I'm impressed with 
and it's what I want to ask you about.
    So I'll throw it out to all of you. What is an 
institution's responsibility, if any, to try to guide or 
influence a student's pathway to a degree that's marketable in 
the 21st century, in other words, their major? I'll open it up 
to you.
    Mr. Oakley.
    Mr. Oakley. Thank you for the question, Senator Burr. First 
of all, students come to college for a specific purpose. They 
want to improve their lives, and many first-generation students 
want to improve their families' lives. They want to obtain a 
good job. They want to improve their living wage.
    It's incumbent upon us, particularly in the public 
institutions, to help guide students as best as possible, 
providing them access to the kinds of support services they 
need early in their first semester so that they not waste time 
getting to their degree. It's good for them if they get to 
their degree faster, and it's good for us as a State and as a 
Nation.
    Senator Burr. How about if they've chosen a pathway that 
you, as educators and business people, look at and say, ``You 
know, this is not a winner for the 21st century.'' Does an 
institution have an obligation to sit down and--like Dr. 
Bassett and Dr. DeSousa said, part of what you had as a 
challenge was to change people's expectations about what they 
could accomplish.
    If their expectations are too low, you're trying to expand 
that. If their choice of academic path is not one of--let's use 
your analogy. If their earnings potential is less than the 
investment that they made in their education, does an 
institution have a responsibility to point that out to them and 
try to point them in a different direction?
    Mr. Oakley. I think the first role of an institution is to 
ensure all of its degrees and certificates are quality degrees 
that lead to some sort of improved employment opportunity, and 
I think that's our first responsibility, to ensure that we are 
conferring degrees that matter.
    Senator Burr. Dr. Bassett, you've got this puzzled look on 
your face.
    Mr. Bassett. I think you're always trying to balance two 
things. You're trying to balance the need to open them up to 
what is out there in terms of real careers, and our problem in 
the valley is so many of the young people have no sense of a 
future. That is, they don't imagine themselves doing any of 
these things that you would consider to be a successful career.
    I picked up on Dr. DeSousa's comment about really giving 
them a sense of opportunity out there, and put it together with 
Dr. Lomax's comment on getting them over the wall to see that 
bigger world where there are people like them doing these 
things. But the balance I think I'd talk about in response to 
your question is explaining to them what those real options are 
and, clearly, what real careers are out there and what aren't. 
The balance is with their passion. That is, their passion is 
driving them in this direction, and you're inclined to say, 
``Well, that's going to be a pretty steep hill to go up 
there.''
    So we educate you, we prepare you, we advise you into what 
the career options are. But at some point, I also want to take 
advantage of that passion, because the student with ability and 
passion and the art major may be very successful. The person 
without much ability going into that field--whoops, I think 
we'd better get you over into the accounting major here.
    I think it's always a balance between an education and what 
the real world is out there, but also take advantage of their 
passion and ability. And I think our responsibility is to 
provide intentional advising that helps them finally make the 
decision with as much of that information as we can give them.
    Mr. DeSousa. Senator Burr, may I comment?
    Senator Burr. Yes, sir.
    Mr. DeSousa. Senator, one of the things about Fayetteville 
State University, I think, that is very unique is that during 
the first year, we demand that first year students take the 
Strong Interest Inventory, the SII, during freshman seminar. As 
a result of that, it helps to create opportunities for them to 
see where their strengths are and where they fall on this 
inventory, and they can connect with the proper major.
    One of the things that we have found at Fayetteville State 
University is that for first-year students who select majors 
early, they are more likely to return the second year than 
students who do not select majors during their first year. To 
your point, what we have found is that some students are a 
little bit too ambitious about majors.
    There was a young man who came in to see me and said, ``I 
want to be a part of the nursing program at Fayetteville State 
University.'' I pulled up his academic profile, and I noticed 
that he wasn't strong in math and science. I said, ``I want you 
to go over and talk to someone in nursing and ask whether or 
not you would be a candidate for that program in about 1 or 2 
years.'' He has done that, and I believe that he has made some 
different choices about his major.
    Senator Burr. Dr. Gasman.
    Ms. Gasman. Sure. One of the comments that I wanted to make 
kind of harkens to what the president of Heritage mentioned. 
That is, I think it's really important that institutions open 
up the possibilities to students and put those in front of 
them. I, personally, am a professor, but I do think that 
institutions have an obligation to make sure that students know 
what their earning potential is for particular majors. That 
information is available and I think can be given to students.
    Part of the issue has to do with guidance counselors who 
are at the K through 12 level, however, in that they are not 
necessarily giving that information. I, in particular, am a 
case in point, in that like the Heritage students, I was told 
that I would make a lovely secretary because I could type 98 
words a minute, but was never looked upon as someone who could 
be a professor. It was a teacher that told me that I could be 
something different, and also told me about the rewards of that 
profession.
    I do think that institutions do have an obligation to make 
sure that students know what's out there ahead of them, and I 
think that that does happen among staff, among faculty, among 
career services offices. I think we could probably do a better 
job, but I do think it's essential.
    Senator Burr. Once again, with a panel focused on higher 
education, all of you have referred it back to a reference to K 
through 12 at some point, and I think that's consistent with 
every time we've had a hearing on reauthorization. And it 
really doesn't matter whether it's charter schools or the KIPP 
academy or public schools. The one thing that you find in a 
successful K through 12 system is passionate teachers, exactly 
what Dr. Bassett was talking about. For KIPP, you find a large 
majority of those out of Teach for America, which is a 
fantastic program.
    I want to thank all of you for being here. I want to thank 
Senator Alexander for yielding me his time. I'll just conclude 
with this, that this is important to North Carolina, and it's 
important to the country. But North Carolina produces the 
second largest pool of graduates of higher education annually 
of any State in the country other than California. That 
provides us the future workforce that business investment 
needs.
    The challenging thing today is I don't think any of us look 
out, regardless of the State you come from, and say, ``We'll 
build another university tomorrow.'' It's cost prohibitive. 
We've got to focus on how we take the infrastructure we have, 
grow it, make it better, utilize it in a fashion that 
everything that's coming out the door is intended for exactly 
the time we're in, which is the 21st century.
    Thank you for the input--Dr. Lomax, thank you for all you 
do.
    Thank you, Madam Chairman.
    Senator Hagan. Thank you, Senator Burr.
    Senator Alexander.
    Senator Alexander. Thank you, Madam Chair. I know that the 
vote has started and that you and Senator Paul may have some 
additional questions. So I'll try to get right to the point.
    First, thanks to every one of you for coming. We're in the 
middle of a reauthorization of the Higher Education Act, and I, 
for one, would like to start from scratch. It's been 
reauthorized eight times, and the stuff just piles up and piles 
up and piles up.
    I'd like to deregulate higher education as much as we can 
and still be good stewards of the trillion dollars in loans and 
$33 billion in Pell grants of the taxpayers' money that we 
spend every year. Your specific suggestions to us about how to 
do that would be very helpful and very timely. We're working on 
that now.
    For example, over-borrowing is a problem. Dr. DeSousa, you 
mentioned that you were working on helping a student make a 
plan. Under the current law, you can't require the student to 
do that as a condition for getting the loan. You have to offer 
the opportunity. Right?
    Mr. DeSousa. Yes, sir.
    Senator Alexander. Wouldn't it be helpful if the law made 
it clear that institutions that wanted to do a good job of 
counseling about that could? I mean, any 19-year-old can walk 
in and get $5,500 at 3.86 percent, I think, is what we cut it 
to. That's a pretty tempting offer. What to do with it is 
another thing and can lead to the over-borrowing problems we 
hear so much about.
    Mr. DeSousa. Senator Alexander, the best way I can respond 
to this question is to say that what Fayetteville State 
University does is entrance counseling. So when students visit 
the Office of Financial Aid, they sit down and talk with a 
financial aid advisor.
    Senator Alexander. Which, I guess, every single one does. 
Almost every single student must do that. Right?
    Mr. DeSousa. Yes, sir. They must do that. And, again, I 
just want to reiterate, Senator Alexander, that the model at 
Fayetteville State University is surely scholarships and grants 
first. That's what we must do at our institutions.
    Senator Alexander. Right. Do any of you--I mean, the 
average Pell grant is about $3,300. The average community 
college tuition is about the same. Do any of you work with 
community colleges to help low-income students have a chance to 
go there for 2 years and then reduce their expenses by coming 
on later to the 4-year institutions?
    Mr. DeSousa. Senator Alexander, one of the things that I'm 
proud to say is that Fayetteville State University, through a 
grant from The Links, Incorporated, is working very closely 
with Fayetteville Tech Community College. The purpose of The 
Links grant is to better create a pipeline for students from 2-
year institutions to 4-year institutions. Fayetteville State 
University has sweetened the pot. While The Links has not 
required us to provide additional funds on top of what students 
are getting, the Office of the Provost has permitted us to 
provide an extra $1,000 to students who come in through The 
Links program initiative.
    Senator Alexander. Let me go on to other questions. I'm 
about out of time, and we're about to have a vote.
    Dr. Lomax, you were president of a university twice--once?
    Mr. Lomax. Once. That's enough.
    [Laughter.]
    Senator Alexander. I was going to say--I won't say it. But 
I respect that. Let me put it that way. When you were president 
of a university, did you have to hire extra people to help 
students fill out Federal application forms?
    Mr. Lomax. We really did. I was president of Dillard 
University in New Orleans, and, you know, so many of the--now, 
this was 10 years ago, and I think a lot has happened since 
then. People are more aware of Federal financial aid forms. I 
think we do a better job getting them to fill those out.
    I think what they're not aware of is that loans aren't 
grants. I don't think we've really gotten them to fully 
understand that there's going to be a reckoning, and the 
reckoning is--even if you graduate, there's going to be a 
reckoning, and if you don't graduate, there'll be a reckoning 
as well. I think making students understand that this is--and 
their families--this is serious. This is an obligation. They 
will be required to repay it, and they should borrow only what 
they need, not what they want.
    Senator Alexander. Thank you. I'll make one observation, 
and then I'll go back to the chairman and thank her and Senator 
Paul for holding this hearing.
    I've heard the comment that taxpayers are profiting off of 
students on loans. According to the law, that's true, but not 
according to the Congressional Budget Office, who has told us 
the reverse, that if we were to fairly account for the student 
loan program, it would be the students who are profiting off 
the taxpayers. They've told us that the accounting we use now 
is bad accounting, because it doesn't take in risk, and they've 
recommended instead that we use the accounting system that we 
use for the Troubled Relief Asset Program, which took into 
account risk.
    There are two sides to that story, and I wouldn't want 
students around the country to believe that the taxpayers are 
profiting off the students when the Congressional Budget 
Office, who we pay to give us nonpartisan advice, tells us that 
it's the reverse.
    Thank you, Madam Chairman.
    Senator Hagan. Thank you, Senator Alexander.
    There's obviously more questions I want to ask. I want to 
talk quickly on one, and then we're going to recess while we go 
and vote, and then I will definitely come back and we can have 
another question or two and then some closing statements.
    Dr. Gasman and Dr. Bassett, both of you have talked about 
the teacher education programs at our minority serving 
institutions and the impact that they make on other students, 
minority students, around the country.
    Dr. Gasman, I think in your testimony, you said that 11 
percent of teacher education degrees were awarded at minority 
serving institutions.
    Could both of you talk just a minute or so about the impact 
that that means to our minority students and how we've got to 
be sure these education programs are of the highest caliber and 
quality?
    Ms. Gasman. Eleven percent is an interesting percentage 
because it's the percentage of teachers that MSIs award today. 
But if you were to look at the teachers who are out in the 
workforce, teachers of color, you would find that the majority 
of them were educated at minority serving institutions overall. 
That's also something really important.
    I think that the most important reason why we need more 
teachers of color bears out in all of the research around the 
success of students of color, and that is--and I heard Jason 
say this--that it is really important to see people in the 
classroom who look like you. It is empowering, and there is a 
myriad of research that shows that that is true. That's 
incredibly important.
    As our Nation is changing very rapidly, I think it is 
absolutely essential--not that it wasn't before--but absolutely 
essential that the teaching force look more like the students 
who they are going to serve.
    Senator Hagan. Dr. Bassett.
    Mr. Bassett. I think you've made the salient point. There's 
a huge disconnect between our current population of students in 
the classroom and the teachers that they have. I think the two 
most important points about the Heritage teaching program are, 
first, it is a residency-based program. Junior and senior year, 
they're actually in the school and learning early if they're 
not meant to be teachers.
    Second, it builds cultural sensitivity into the teacher 
training program. One of the reasons the teachers graduating 
are so valued is that they bring that cultural sensitivity for 
the minority populations to their preparation, and the students 
coming out of the other colleges in the region do not.
    Senator Hagan. And I believe you said they tend to go back 
to their----
    Mr. Bassett. Our students do stay in the region, and they 
don't leave the teaching profession after 5 years. We lose so 
many people. So many young teachers we lose in the first 5 
years.
    Senator Hagan. All right. We will take a very short recess, 
and then I'll be right back. Thank you.
    [Recess.]
    Senator Hagan. We will resume the testimony, and thank you 
very much. Votes do cause us to interrupt a hearing every now 
and then. So I appreciate your time and the fact that you have 
stayed around.
    I did want to ask Dr. DeSousa one question about our 
military bases. I know that probably other institutions also 
offer classes working with our active duty men and women on 
military bases. I know Fayetteville State offers classes on 
Fort Bragg, Camp Lejeune, and Seymour Johnson. And as we're 
talking about diversity in higher education, students on 
military bases are another distinct population with their own 
set of specific needs.
    Dr. DeSousa, what lessons do you think the university has 
learned from offering these classes on military bases?
    Mr. DeSousa. Senator Hagan, thank you for the question, 
first of all. I think that given Fayetteville State 
University's location in Fayetteville, next door to Fort Bragg, 
we have had tremendous opportunities to work hand in hand with 
the soldiers there. And based on our presence at Fort Bragg, we 
can contribute growth in enrollment and increases in graduation 
rates.
    One of the jewels, I think, that you'll be hearing more 
about over the course of the next year or so is this new 
certificate program in cyber security that we're now offering 
to returning veterans, a certificate program that allows them 
to be able to get jobs in homeland security and defense and 
related types of fields. But Fort Bragg has been a tremendous 
asset to Fayetteville State University, particularly our 
ability to grow enrollment.
    Senator Hagan. Especially with the African American males. 
I would presume that that would also be a number.
    Do any of the other witnesses have any other comments on 
that issue?
    I see Senator Scott here.
    Senator Scott.

                       Statement of Senator Scott

    Senator Scott. Thank you, Madam Chairwoman.
    Thank you all, panelists, for being here today and 
participating in this process and for the enlightening 
information. I've had two committee hearings at the same time. 
I just wanted to ask a couple of questions on the public-
private partnerships, and perhaps, Dr. DeSousa, you would have 
an opportunity to answer the question.
    I think about the success in South Carolina with the 
partnerships with Claflin, Abney Foundation, AT&T, Bank of 
America, as well as other partnerships that exist around the 
State. Boeing has a partnership with my old high school, Stall 
High School, to promote instruction for aerodynamics and 
manufacturing.
    The United Negro College Fund, of course, has a partnership 
with Merck to increase research at the undergraduate level and 
enhance career opportunities. We see success with Howard and 
GM, the foundation. We've had a longstanding partnership, and 
Lockheed Martin just partnered with Bowie State.
    I have a piece of legislation called the SEA Jobs Act, 
which is looking at ways to create more seismic activity off 
the South Atlantic coast, giving an opportunity to some of the 
HBCUs to receive revenues from that stream of resources, 
realizing that over the next 20 years or so, we'll see another 
1.3 million jobs in the oil, gas, and petrochemicals industry. 
Yet in 2010, about 8.2 percent of that workforce were black. So 
we're looking for ways to use the STEM opportunity to promote 
and to encourage more students to end up in the field that 
seems to be the highest or the largest growth opportunity in 
our economy.
    My question to you, sir, is when you look at using existing 
resources, how can our schools replicate public-private 
partnerships on a larger scale to boost the number of STEM 
graduates and to help prepare our students for success in the 
job market?
    Mr. DeSousa. Senator Scott, that's a very good question. 
Thank you for asking it. As I mentioned to Senator Hagan in my 
comment about cyber security, this is an example of 
Fayetteville State University working directly in partnership 
with the University of Maryland Baltimore County, which, as you 
know, has a stellar record in the country in terms of producing 
African American STEM majors. So we're pleased about that 
partnership.
    The cyber security program is funded through title III, so 
it's not a private resource. The university has a very strong 
partnership with North Carolina State University through a Two-
Plus-Three program, where students start 2 years in the 
sciences, perhaps chemistry or biology, and then transfer to 
North Carolina State University where they will major in a STEM 
field, particularly in engineering. So those are two examples.
    In terms of using private resources, Senator, earlier, you 
were not here when I mentioned the fact that through The Links 
Foundation with funding from Lumina and support from NAFIO, we 
are able to partner with Fayetteville Tech Community College. 
Throughout the country, there are only 14 schools nationally 
that have resources from The Links and Lumina with support from 
NAFIO that creates opportunities for 2-year students to 
transfer into 4-year institutions.
    And, of course, our emphasis at Fayetteville State 
University is on many majors for these students transferring. 
But we highly encourage them to get involved in STEM fields. As 
a part of The Links program, students come in on Tuesdays--we 
call it transfer Tuesdays--and they meet with academic 
departments, and the sciences are among the most popular for 
Fayetteville Tech Community College students.
    Senator Scott. Thank you.
    Dr. Lomax, did you want to add something?
    Mr. Lomax. Thank you very much, Senator Scott. You 
referenced in passing the UNCF-Merck science initiative, which 
is now in its 18th year, and Merck has been a partner with UNCF 
to the tune of $44 million, providing undergraduate, graduate, 
and postgraduate funding for students to pursue degrees in 
research science.
    We've produced to date, in partnership with Merck, 600 
Ph.D.s in the research sciences. The big beneficiary has been 
the NIH. But that's been a demonstration that there is talent, 
and I would note for you that these are students who don't just 
attend HBCUs. They attend colleges and universities all across 
the country, but they are all African American, and many of 
them are the first in their families to graduate from college. 
So there's a big interest in STEM.
    I would say there are two barriers. One is that to succeed 
in STEM, you've got to build a firm academic foundation. So 
math and science--I taught English, so communication doesn't 
hurt, either, but really grounding kids in the math. I have a 
21-year-old daughter who is at Howard University. She will be 
an intern at Google this summer in computer science, a highly 
competitive opportunity. But she's a whiz in math, and she's 
been getting a strong math education.
    So it's really to give them the foundation, and also give 
them the opportunity to see that there is a world out there. In 
2013, UNCF launched the centerpiece of its new STEM initiative, 
a national HBCU Innovation Summit held in Silicon Valley. The 
purpose of the summit was to build bridges between HBCUs and 
the technology community and to develop and enhance the 
innovation and entrepreneurial capacity of HBCUs with the goal 
of establishing productive innovation, entrepreneurial 
ecosystems across the HBCU network.
    I think it's also encouraging innovation, encouraging 
partnership. We did that with Stanford University, and we did 
it with a number of the major companies out there, Facebook, 
Google, and others. I think that innovation opportunity is 
there, Senator Hagan, if we'll just lift it up with some 
investment.
    Senator Scott. Thank you. I'll wrap it up since my time has 
expired. I will say that I do concur that we need to find a way 
to not only focus on college level education but to focus 
perhaps more on the academic direction of our K through 12 
education.
    My nephew on Sunday graduated from Duke with his master's 
in engineering and management and spent 4 years at Georgia Tech 
getting his biomedical engineering major. And I will tell you 
that when you go onto those campuses and you see the diversity, 
the international diversity, and you see the workforce in the 
next 20 or 30 years as it continues to evolve, the global 
competition for the jobs in the STEM field will require us to 
have a greater focus on K through 12 to produce a competitive 
product in the upcoming workforce.
    Thank you, ma'am.
    Senator Hagan. Senator Scott, thank you for your comments. 
I am one of the biggest proponents of STEM education in the 
Senate, because it is so important for the jobs today, the jobs 
of the 21st century, and the jobs that are going to move our 
country forward on a competitive basis worldwide.
    With that in mind, Mr. Oakley, in your testimony and in 
your opening statement, you talked about how you are no longer 
using the standardized--or how you're looking at students' 
grades within the high school. I've been hearing a lot about 
the number of remedial classes that our students have to take 
at a community college after they've graduated from high 
school.
    Of course, the problem here is that now they are paying for 
these remedial courses before they can ever really get toward 
their college 2-year associate's degree, college education, and 
it's expensive. And from what I've been reading, too, so many 
people actually then drop out because they don't see the 
payback, whether in the debt that they're already putting 
forward or how they're going to get through.
    Can you talk about that? And do you think there's some 
feedback mechanism that we can set up with our high schools to 
know if a disproportionate number of their students are in need 
of remediation? We've got to have that strong background in our 
middle schools and in our high schools.
    Mr. Oakley. Yes. Thank you for that question, Senator 
Hagan. First of all, as we all know, remedial education is 
really a burial ground for disadvantaged students, for under-
represented students. We tend to oversubscribe our remedial 
classes with under-represented students, and that's where they 
wind up finishing, and they're not completing.
    So because of our relationship with the Long Beach Unified 
School District, we've been working for several years, and the 
K-12 system has been doing tremendous work at better preparing 
students to be college- and career-ready. But when they were 
getting to our doors, we noticed that 90 percent, or virtually 
90 percent, when we gave them the assessment test, were testing 
below college level. So we noticed that there was a clear 
disconnect. Something was wrong.
    So we decided to look at 5 years of data, over 7,000 
students, and what we found was that the best predictor of 
successful placement is past performance, and that makes sense 
to most normal people. Your experience tells you a lot about 
how you're going to succeed.
    Senator Hagan. I understand that. But what about those 
students who have not done well, or they haven't had the course 
offerings that would prepare them for a stricter academic 
study?
    Mr. Oakley. If we can do a better job of placing students 
up front, we can do a better job of aligning the resources that 
we have to do a better job with remedial education and to work 
in the K-12 system to have a better communication structure 
with the K-12 system to understand early in their academic 
experience where those points are that we need to improve and 
to invest in those points, because those kids are all of our 
responsibilities. So we need to work more closely with the K-12 
system.
    Senator Hagan. I agree.
    Dr. Lomax.
    Mr. Lomax. I think there's one fix which is right there in 
front of us. A lot of these young people, for the time being, 
are going to require personalized education plans that will 
enable them to meet the standards for credit bearing courses at 
the college level. They shouldn't be paying full tuition to do 
that, and we ought to have opportunities to teach them using 
technology.
    Right now, one of the barriers for HBCUs innovating in this 
area is that we can't use title III funds for online programs. 
I think if we could remove that barrier and really encourage 
investment in using technology as a low-cost way of 
personalizing the instruction for students who don't yet meet 
our standards and use blended learning and direct technology as 
a way of reaching those students, improving their skill levels, 
so that when they come to our campuses and they start paying 
full tuition, they're actually taking credit-bearing courses.
    Senator Hagan. And I think you also mentioned the need for 
Pell grants in the summertime, too.
    Mr. Lomax. Absolutely, because that's a time when many of 
our students, who need to get some direct improvement in some 
of their basic skills or want to try to finish within that 4-
year period, could be on our campuses. Thank you.
    Senator Hagan. Dr. Gasman.
    Ms. Gasman. Sure. I wanted to comment just about 
developmental education overall. I think that there are 
organizations that have told us that developmental education 
doesn't work. But there are institutions where it does work.
    Over the past 3 years, I conducted a large scale national 
study funded by Lumina Foundation, Kresge Foundation, and USA 
Funds with my colleague, Cliff Conrad. One of the things that 
we found is that at quite a few institutions--and I'll give you 
some examples--developmental education, when mainstreamed with 
other classes, works very well.
    For example, at El Paso Community College, they track all 
of their students in developmental education at every stage 
along the way so that they know how--any student that you put 
in front of them, they can tell you how that student is doing. 
They're really a model for the whole nation. But developmental 
education works really well there.
    Or at Chief Dull Knife College, which is a tribal college 
in Montana, they have a problem with math shame among Native 
Americans. And through developmental education, computer-
assisted developmental education, they've actually made 
enormous strides. If you've ever been to Chief Dull Knife, they 
have no resources, but they've made enormous strides.
    I think that matters, and I think it depends on where the 
developmental education takes place. It also depends on how it 
plays out. I don't think that we can forget students who are 
underprepared by the K through 12 system. What happens to them 
if we don't provide that kind of service, because we can't 
summarily fix the K through 12 system?
    Senator Hagan. Dr. Bassett.
    Mr. Bassett. Thank you, Senator Hagan. We have a tremendous 
under-utilized population with STEM potential, the minority 
population, whether African American, Hispanic American, Native 
American, that is never given an opportunity really to develop 
those skills in the K through 12 world in math and science. 
Picking up on Senator Scott's comment, I think one of the 
greatest potentials for a business philanthropy public sector 
partnership would be to have a major impact on STEM education 
for elementary age and middle school kids.
    If you get them excited about real world problems, they 
then want to learn the math and the science. When it remains 
abstract, they're never quite sure why it's there, why they're 
learning it. I think there's a tremendous potential here with 
those populations for an initiative to change STEM education at 
the elementary and middle school level.
    Senator Hagan. I couldn't agree more. And with that, I 
really want to thank all of our witnesses today for being here, 
for traveling here, for your testimony, for staying through the 
recess, and certainly for what you do on the campuses--and Dr. 
Lomax--that you make such a difference to the minority serving 
institutions and the students, the faculty, and, obviously, the 
families.
    These schools are richly diverse schools, and they're all 
working hard to meet the challenges and the changing needs of 
our students in America. I thank you for what you're doing. 
Hearing the testimony, it's clear in my mind that we need to 
support our minority serving institutions, our HBCUs, in their 
drive toward innovation on campuses and, in particular, in the 
STEM fields. We know we've got to work in partnership and 
buildup from elementary and middle school and our K-12 programs 
for STEM.
    But there are great programs being implemented all over the 
country, like the MILE program, areas that we need to be sure 
that these schools have the support to create and expand these 
programs. The issue seems to be universal and reaffirms what 
I've heard from our chancellors at HBCUs in North Carolina.
    That's why I am proud to announce that I'm going to be 
introducing the HBCU Innovation Fund as a mechanism to help 
HBCUs surmount the challenges that we've discussed today. This 
legislation is going to provide competitive grants to HBCUs to 
develop innovative initiatives to address specific outcomes 
that meet the needs of their students, their population base, 
the students that they serve in their communities.
    This includes building partnerships between the HBCUs and 
their local high schools within those communities, increasing 
student enrollment in the STEM fields, developing partnerships 
to support entrepreneurship and research--we discussed the 
entrepreneurship demand--and increasing the number of African 
American males who attain postsecondary degrees. I look forward 
to sharing more information about this bill, encouraging my 
colleagues to support the HBCU Innovation Fund.
    This hearing is going to remain open for 10 business days 
for other Senators to submit questions that they didn't get a 
chance to ask today and to obviously hear your response to 
those questions and those issues. So with that, once again, I 
thank you so much for your travel, your time, and being in this 
hearing. We have a great number of Senators that are very 
interested in these ideas and in the programs that you are 
carrying out.
    With that, this hearing is now adjourned.
    [Additional material follows.]

                          ADDITIONAL MATERIAL

                                       U.S. Senate,
                                 Washington, DC 20510-0609,
                                                      May 22, 2014.

    Chairman Harkin and Ranking Member Alexander: I would like to 
submit a testimony for the record on Minority Serving Institutions from 
Dr. Dene Kay Thomas, president of Fort Lewis College in Colorado. Fort 
Lewis College serves over 4,000 students, including students from 146 
American Indian Tribes. I believe her thoughts on this issue will 
provide necessary insight and helpful information as the HELP Committee 
continues the HEA reauthorization.
    Thank you for your consideration of Dr. Thomas' testimony.
            Sincerely,
                                         Michael F. Bennet,
                                                      U.S. Senator.
                                 ______
                                 
  Prepared Statement of Dene K. Thomas, Ph.D., President, Fort Lewis 
                          College, Durango, CO
    I don't think anybody anywhere can talk about the future of their 
people without talking about education.--Wilma Mankiller, former 
principle chief, Cherokee Nation
         unique history and mission of native american-serving 
                         nontribal institutions
    Good morning Chairman Harkin, Ranking Member Alexander, Senator 
Hagen, Senator Paul and members of the committee. My name is Dr. Dene 
Thomas and I am the president of Fort Lewis College in Durango, CO. 
Fort Lewis College is named for Fort Lewis, a U.S. Army Post 
established in 1878 at Pagosa Springs, CO. Two years later, the 
military post was moved to Hesperus, CO, a location more central to 
American Indian settlements and pioneer communities in the early 1890s. 
On January 25, 1911, Governor John Shafroth of Colorado signed a 
contract with the Federal Government which transferred 6,279 acres in 
southwest Colorado to the State of Colorado ``to be maintained as an 
institution of learning to which Indian students will be admitted free 
of tuition and on an equality with white students'' in perpetuity (Act 
of 61st Congress, 1911). There were approximately 40 students in 1909. 
The school was an Indian boarding school and began to offer college-
level courses in 1925.
    Fort Lewis College moved to the Durango campus in 1956, and the 
first baccalaureate degrees were granted in 1964. The first graduate 
degree program, a Masters of Arts in Teacher Leadership, began in fall 
2013. Fort Lewis College continues to honor its historic commitment to 
Native Americans by offering tuition scholarships to Native Americans 
of all tribes who meet admission requirements. It is one of only two, 
public 4-year colleges in the Nation to grant tuition waivers to 
qualified Native American students from any federally recognized tribe 
and has done so for more than 100 years.
    Fort Lewis College is proud of its dual mission as Colorado's only 
public liberal arts college and as a Native American-Serving, Nontribal 
College, a designation it received from the U.S. Department of 
Education in fall 2008 and still holds today. The college is 27 percent 
American Indian/Alaskan Native (AI/AN) and includes students from 146 
tribes and 46 States. As of 2013, Fort Lewis College ranks fourth in 
the Nation in the percent of full-time Native American undergraduates 
enrolled in a baccalaureate institution.\1\ Almost half of Fort Lewis 
College Native students are from the Navajo Nation (second largest 
tribe in the United States), closest border of this vast 25,000-square 
mile reservation is located 84 miles from campus, and 11 percent are 
from Native Alaskan tribes.
---------------------------------------------------------------------------
    \1\ EchoHawk, Sarah, ``Winds of Change, Expanding Opportunities for 
American Indians and Alaska Natives'', Spring 2013.
---------------------------------------------------------------------------
    Fort Lewis College awards more degrees to Native American/Alaskan 
Native students than any other baccalaureate institution in the Nation 
(National Science Foundation, WebCASPAR, data retrieved September 
2013). From 2006-10, Fort Lewis College awarded over 10 percent (556) 
of the total number of baccalaureate degrees earned by Native American 
students in the United States.\2\ In 2010, Fort Lewis College was first 
in the Nation in baccalaureate STEM (science, technology, engineering 
and math) degrees earned by AI/AN students.\3\
---------------------------------------------------------------------------
    \2\ Ibid.
    \3\ Ibid.
---------------------------------------------------------------------------
    At Fort Lewis College, programs and classes offer students the 
ability to learn or strengthen their collective Native culture through 
the Native American Center, the Native American Honor Society, American 
Indian Business Leaders, the American Indian Science and Engineering 
Society, and the Native American Indigenous Studies program. In our 
Elder-In-Residence program, Mrs. Lucille Echohawk, a member of the 
Pawnee Nation, encouraged students to stay strong in their Native 
traditions, as they move through College and beyond. We believe that it 
is this emphasis on academic and cultural support that has helped to 
make Fort Lewis College one of the top public institutions in the 
country where Native students excel and graduate.
    Another public institution that qualifies as a Native American-
Serving, Nontribal Institution to have the same mandate of free tuition 
is the University of Minnesota, Morris. The campus of the University of 
Minnesota, Morris (UMM) sits on land that was once home to people of 
the Anishinaabe (Ojibwe) and the Dakota and Lakota (Sioux) nations. In 
1909, through Federal legislation and a Minnesota State statute, (in 
Laws 1909, chapter 184), about 290 acres and the buildings on the land 
in rural Minnesota were deeded to the State of Minnesota for the 
purpose of establishing an agricultural boarding high school under the 
auspices of the University of Minnesota. The agreement stated ``that 
said lands and buildings shall be held and maintained by the State of 
Minnesota as an agricultural school, and that Indian pupils shall at 
all times be admitted to such school free of charge for tuition and on 
terms of equality with white pupils'' (Act of the 60th Congress, 1909). 
Today, 271 AI/AN students from 50 federally recognized tribes and 
Alaskan villages attend UMM, which comprise 15 percent of their total 
enrollment. More important, 61 percent of AI/AN students graduate 
within 6 years. Since 1960, over $20.0 million in tuition has been 
waived for AI/AN students.
    The University of North Carolina, Pembroke is also a Native 
American-Serving, Nontribal College. The College was founded in 1887, 
as the State Normal School for Indians, in response to a petition from 
American Indians in the area to establish and train American Indian 
teachers. In 1909, it moved to its present day location in Pembroke, 
which was the center of the Indian community. In 1933, the College 
offered 2-year degrees, and by 1949 it began to offer 4-year degrees. 
American Indian/Alaskan Native students comprise 16 percent (863) of 
their fall 2013 student enrollment.
    These institutions share a unique relationship to the land and the 
Native American people from which the origins of the higher education 
institutions were founded. These institutions are also connected to 
greater social movements and education initiatives in this country--
from the American Indian boarding school movement to the agricultural 
boarding high school movement to the expansion of American higher 
education in the 1960s under the Johnson administration's Great 
Society. This expansion promised to prepare a workforce for a growing 
American economy, and to open public educational opportunities to a 
broader array of people--those under-represented in American higher 
education (Johnson, 2012).\4\
---------------------------------------------------------------------------
    \4\ Johnson, Jackie, ``Need for Assistance in Fulfilling Certain 
Federal Mandates to Provide Education Opportunities to American 
Indians''; Written Testimony, U.S. Senate Health Education, Labor, and 
Pensions Hearing, Denver, CO, August 2012.
---------------------------------------------------------------------------
                american indian/alaskan native education
    Native American-Serving, Nontribal Colleges are comprised of mainly 
public institutions that are rural and centrally located to AI/AN 
populations in the southwestern, plains, and southeastern portions of 
the United States. According to the White House Initiative on American 
Indian/Alaskan Native Education, more than 90 percent of AI/AN 
postsecondary students attend institutions of higher education that are 
not tribally controlled. Many Native American-Serving, Nontribal 
Colleges have a strong relationship with TCUs. Often students complete 
their associate degree at a TCU and transfer to a Native American-
serving, nontribal school to complete their baccalaureate degree, and 
have the chance to enroll in graduate and professional school.
    According to 2010 U.S. Census Bureau, the AI/AN population 
increased twice as fast as the total U.S. population, growing by 18 
percent, in comparison to the total U.S. population that grew by 9.7 
percent from 2000-10.\5\ However, the AI/AN population is under-
represented in educational attainment rates. U.S. Census Bureau data 
show that 28 percent of the overall U.S. population has a bachelor's 
degree, while only 13 percent of the AI/AN population has a bachelor's 
degree.\6\ Less than 1 percent (0.7 percent) of American Indians attain 
a Baccalaureate Degree annually, which is notably lower than all other 
minorities, (African American (8.9 percent), Hispanic (7.5 percent), 
and Asian American (6.6 percent). Yet, AI/AN students slightly outpace 
all other students in the percent of 2012 ACT-tested high school 
graduates that have educational aspirations beyond high school. Forty-
eight percent reported an interest in obtaining a bachelor's degree, 
compared to 45 percent of all students. 28.4 percent of the AI/AN 
population lives in poverty, versus 15.3 percent of the overall 
population in the Nation as a whole.
---------------------------------------------------------------------------
    \5\ Norris, Vines, and Hoeffel, ``The American Indian and Alaskan 
Native Population: 2010,'' U.S. Department of Commerce Economics and 
Statistics Administration, January 2012.
    \6\ Ibid.
---------------------------------------------------------------------------
    The educational attainment rate gap for Native American students is 
widening as bachelor's degrees conferred by ethnicities has increased 
for every minority group, with Hispanics accelerating the highest from 
5.6 percent in 1998 to 7.5 percent in 2008. Other ethnicities have also 
had positive percent changes in degree attainment rates, such as 
African Americans (2.8 percent) and Asian Americans (3.1 percent), 
while Native Americans remained flat over the 10-year period at 0.7 
percent.\7\
---------------------------------------------------------------------------
    \7\ Ibid.
---------------------------------------------------------------------------
    While AI/AN students have stagnated at less than 1 percent of 
bachelor's degrees attained for decades. AI/AN populations have the 
highest suicide rates, unemployment rates, and poverty rates than any 
other population in the Nation. Education is the only way to address 
these systemic problems in AI/AN communities, as demonstrated in the 
success of Black and Hispanic student success. With additional support, 
it is anticipated that similar positive changes will occur in Indian 
country.
    Recent U.S. population and demographic trends confirm that under-
represented students, particularly undergraduate students are critical 
to fulfill 21st century workforce needs. More must be done to support 
AI/AN students achieve educationally and to help Native communities to 
thrive. At Fort Lewis College, the tuition waiver program provides 
important access and opportunity to the most underserved minority 
population, AI/AN students, but more support and robust policies and 
programs are needed to help increase the number of AI/AN students who 
enter and graduate college. AI/AN students need increased access to 
higher education, and also access to support systems that ensure 
greater completion rates once they enter the collegiate level.
            federal trust responsibility for ai/an education
    The Federal Government has a trust responsibility in improving 
postsecondary education attainment rates of AI/AN students, 
particularly as they face barriers to achieving and persisting in the 
higher education system. Financial aid programs provide assistance for 
Native students to succeed in higher education and prepare them to 
enter the workforce. Such need-based aid should be adequately funded 
and expanded to year-round assistance to help ensure Native students 
graduate in 4 years. Unfortunately, as the Federal Government tackles 
fiscal issues in Washington, budget cuts are decreasing the investment 
in education initiatives that could increase college attainment for 
Native students.
    The tuition waiver programs at Fort Lewis College and UMM are a 
major factor in promoting the attendance and success of AI/AN students 
in postsecondary education, yet the Federal mandates have required two 
States to shoulder the responsibility that covers students from 231 
congressional districts and 46 States. Today, the Colorado land where 
Fort Lewis College is situated is valued at $20 million; however, the 
cost of the Native American Tuition Waiver program has grown to over 
$12 million per year to the State of Colorado. In the past 12 years, 
Colorado has paid out nearly $120 million for what has become a very 
fast growing program that is national in scope. A more equitable 
distribution of costs to share the responsibility between the Federal 
and State government would restore the Federal trust responsibility. 
That is why I strongly encourage the Senate HELP Committee and Congress 
to pass The Native American Indian Education Act (S. 765), introduced 
by Colorado Senator Michael Bennet.
    Title III strengthening institutions grants have been a tremendous 
resource to minority serving schools that typically serve high number 
of low-income and first generation students.
    Historically Black Colleges and Universities (HBCUs) and Hispanic-
Serving Institutions (HSIs) have programs for capital financing, 
master's degree program development, STEM articulation and program 
development, post-baccalaureate program development, competitive 
grants, and formula grants. Investments in minority education for these 
groups have resulted in increased enrollment and graduation rates for 
Hispanic and African American students. It is important to expand 
programs and resources for all minority serving institutions, across 
Federal agencies and within them, so that funds are available for 
urgent needs in areas such as capital financing, master's degree 
development, and STEM articulation and programs, and minority science 
and engineering programs.
    There is only a $5 million Federal allocation annually that was 
created in fiscal year 2008-09 to support Native American students 
outside of Tribal Colleges, through the Native American Serving, 
Nontribal College discretionary funds at the U.S. Department of 
Education. Currently, Fort Lewis is just 1 of 14 Native American-
serving, Nontribal Colleges who focus on the attainment of the 
bachelor's degrees for Native American students. Bachelor's degrees 
offer an important educational experience for Native American students 
so that they too can compete in the global market place and carry the 
hopes and dreams of their nation, and ours, into prosperity.
    Institutional partnerships and programs need expanded resources, 
such as U.S. Department of Education, Indian Education Professional 
Development and other grant opportunities, to instruct Native educators 
to teach in higher education and schools that serve reservations and 
communities with high Native populations. At Fort Lewis College, 
through a partnership with the Navajo Nation, we have increased the 
percentage of certified Native (Navajo) teachers in reservations 
schools from 8 percent to 60 percent since 1990.
    Further, education programs such as TRiO are invaluable resources 
for low-income Native students on college campuses, as many of whom are 
first generation and low-income students. They provide critical 
academic and student support services in higher education to help 
students stay in school and graduate at higher rates. However, with 
nearly 10 percent budget reductions in recent years, funding for TRiO 
programs such as Student Support Services, Upward Bound, and Talent 
Search have been greatly reduced. These services are critical for 
Native students who need remedial education services to succeed and 
close the collegiate preparation gap for Native students.
    Executive Order 13592 established the White House Initiative on 
American Indian and Alaskan Native (AI/AN) Education, which has 
established goals for Fort Lewis College to fill 21st-century workforce 
needs by awarding 2,539 additional baccalaureate degrees or 46.2 per 
year by 2020. All Native American-Serving, Non-Tribal Institutions have 
similar goals and benchmarks, as noted here: http://batchgeo.com/map/
8b8fd7a96af2aeb93211cead868d45c3. To reach this goal Native American-
Serving, Non Tribal Institution representatives should participate in 
the national dialog on Indian education with the U.S. Department of 
Education, in such groups as the National Advisory Council on Indian 
Education, to collaborate and work with the Initiative and the 
Department on goals for these institutions in promoting American 
Indian/Alaskan Native education, as 90 percent of AI/AN postsecondary 
students attend institutions of higher education that are not tribally 
controlled.
    Education matters. The U.S. Census Bureau data show that the median 
household income of AI/AN households in 2012 was $35,310 in comparison 
to $51,371 for the Nation as a whole.\8\ In 2011, the median earnings 
of bachelor's degree recipients with no advanced degree working full-
time were $21,100 higher than those of high school graduates. The 
difference includes $5,000 in tax payments and $16,100 in after-tax 
income.\9\ Education is a critical part of the American dream, 
particularly for the AI/AN population in this country where there is 
still the greatest educational and economic disparity.
---------------------------------------------------------------------------
    \8\ http://www.census.gov/newsroom/releases/pdf/cb13ff-26_aian.pdf.
    \9\ Baum, Ma, & Payea, ``Education Pays 2013, The Benefits of 
Higher Education for Individuals and Society, The College Board, 2013.
---------------------------------------------------------------------------
                               conclusion
    Thank you, Mr. Chairman and committee members, for the opportunity 
to provide comments and suggestions about minority-serving 
institutions, in particular, the challenges faced by Native American-
serving, Nontribal Institutions. I appreciate your time and would be 
happy to respond to any questions that you might have for me.
     Prepared Statement of Johnny C. Taylor, Jr., President & CEO, 
                 Thurgood Marshall College Fund (TMCF)
                              introduction
    Thank you Senator Hagan, Senator Paul, Chairman Harkin and Ranking 
Member Alexander and the entire committee for holding a hearing on best 
practices and innovations to promote student success on the campuses of 
minority serving institutions and Historically Black Colleges and 
Universities (HBCUs). My name is Johnny C. Taylor, Jr., and I serve as 
President & CEO of the Thurgood Marshall College Fund (TMCF). The 
Thurgood Marshall College Fund supports and represents 300,000 students 
attending the country's 47 publicly supported Historically Black 
Colleges and Universities, medical schools and law schools. More than 
eighty percent of all students enrolled in HBCUs attend TMCF member-
schools. TMCF was established in 1987 under the leadership of Dr. N. 
Joyce Payne.
    It is with great enthusiasm that I submit this written testimony in 
an effort to highlight some of the important work TMCF is doing to 
support our network of publicly supported HBCUs and the students they 
serve everyday. The contributions of HBCUs to the Nation's ability to 
be globally competitive are significant. Additionally, TMCF's role in 
ensuring our network of schools are graduating a pipeline of students 
who are ready to compete for and create jobs in the 21st Century is 
critical. Outlined below are a few suggestions the committee should 
implement in order to maximize use of precious Federal resources under 
critical programs that support institutional curriculum and student 
success. TMCF is creating success one student at a time. We are doing 
it with scholarship and leadership development support while creating a 
culture of entrepreneurship on our campuses. We also recognize that 
many students arrive on our campuses without adequate preparation from 
their K-12 academic period. In an effort to reach students sooner, TMCF 
is launching our first TMCF Collegiate Academy at Southern University 
in New Orleans, LA.
            background on the thurgood marshall college fund
    Last year TMCF expanded and acquired The Opportunity Funding 
Corporation (OFC). TMCF now owns the OFC not-for-profit and the OFC 
for-profit entities. OFC was created in 1970 to support minority and 
disadvantaged entrepreneurs with investment capital to support for-
profit business ventures. The U.S. Office of Economic Opportunity, 
under President Richard Nixon's administration, funded OFC in the 
amount of $7 million. Later, OFC, the not-for-profit was established. 
Today, TMCF uses OFC to support student innovation and entrepreneurship 
that will ultimately lead to job creation.
    Our core values are focused on the following:

    <bullet> Scholarships: TMCF provides merit and financial-based 
scholarships to students;
    <bullet> Capacity Building: TMCF provides capacity building in the 
form of faculty research fellowships and internship opportunities as 
well as technical support and grants to our network of member schools.
    <bullet> Policy & Advocacy: TMCF serves as the chief advocate for 
public HBCUs and remains engaged on Federal policy and programs that 
support our students and HBCUs nationwide.
Scholarships
    To date, TMCF has provided more than $200 million in scholarships 
and programmatic and capacity building support to students and our 
member schools. Many TMCF member-school graduates have become leaders 
in the business, education, government and entertainment industries to 
name a few. Few of these achievements would be possible without TMCF.
Capacity Building & Programmatic Support
    Each year TMCF convenes a capacity building conference entitled the 
Member-Universities Professional Institute (MUPI). This year's 
conference theme, ``Full STEAM Ahead: Improving Retention, Graduation & 
Career Readiness in Science, Technology, Engineering, Agriculture and 
Mathematics'' (STEAM), proved to be extremely valuable. Through 
workshops, plenary sessions and forums TMCF-connected faculty, provosts 
and students with program officers from many Federal agencies including 
U.S. Department of Agriculture (USDA), Centers for Disease Control 
(CDC), and Department of Defense (DOD). MUPI conference attendees 
learned first hand about how to successfully compete for resources at 
the Federal level and how to ensure students are prepared to compete 
for internships and full-time employment with Federal agencies.
    Additionally, during the same week, TMCF hosted our member 
presidents and board chairs for a 2-day governance session. TMCF is 
committed to ensuring our HBCU member presidents have the opportunity 
to learn and share best practices around board engagement and 
governance generally.
    Our programmatic support is very much focused on ensuring TMCF 
students have access to great internship and fellowship opportunities. 
Each year we host an Annual Leadership Institute. We know these 
internships do not always turn into a job after graduation but many do. 
All of these experiences help expose students to the possibilities of 
what can be achieved with their degree once they enter the job market.
    This is critical for first generation college students who often do 
not have multiple role models to show them what opportunities exist 
across the public and private sectors. TMCF teams up with the top 
employers across the country and during the Annual Student Leadership 
Institute to create opportunity for high achieving students to 
interview with top employers nationwide. During this time students also 
receive leadership development training.
    TMCF is also working to create a culture of entrepreneurship on our 
campuses. During April 2014, TMCF's new subsidiary, The Opportunity 
Funding Corporation (OFC) hosted our first Student Innovation & 
Entrepreneurship Venture Challenge. This competition brought HBCU and 
other MSI students to Atlanta, GA where they presented their business 
plans to a panel of real life CEO judges. The OFC venture challenge 
competition is designed to mimic the real world process of raising 
venture capital and helps student entrepreneurs showcase their business 
acumen. A total of 19 public and private HBCUs participated as well as 
the University of the West Indies. TMCF urges the committee to find 
ways to support student entrepreneurship on HBCU campuses. In today's 
job market when individuals more frequently change jobs, we know it is 
increasingly important for students to be able to develop skill sets 
and that will lead to job creation.
  recommendations for the reauthorization of the higher education act
    While the average tuition at publicly supported HBCUs is about 
$6,3000 per year, college costs are increasing and students and their 
families are continuing to accumulate record levels of college loan 
debt. TMCF would like the committee to consider finding ways to address 
and enhance existing loan programs in an effort to curb costs to 
families and reward students with great academic talent.

Enhance Title III B, Strengthening Historically Black Colleges & 
                    Universities

    Title III, part B discretionary and mandatory funding accounts are 
critical formula-based aid that is effectively used to support 
undergraduate academic programs and activities. TMCF urges the 
committee to support continued and increased authorization levels for 
these accounts. Specifically, TMCF urges the committee to support a 
significant investment in title III part B that would restore pre-
sequestration levels and account for inflation. Additionally, consider 
authorizing expanded permissible use of the funds to cover distance 
learning. Under current law, title III part B funds are not authorized 
to support distance learning for HBCUs. As HBCUs enhance their 
technology use on campus or work to find ways to attract more non-
traditional students, providing long distance learning opportunities is 
critical.

Enhance and Grow the HBCU Capital Financing Program

    The HBCU Capital Financing Program provides low-interest financing 
to eligible HBCUs to support infrastructure and facility building and 
improvements. Use of these funds results in restoration and creation of 
dormitories and academic buildings on HBCU campuses. The risk to the 
government in this loan program is extremely low.
    Each approved borrower is required to contribute 5 percent of their 
loan funds to a pooled escrow account to cover any future defaults in 
the program. During the entire history of the program, there has only 
been one default and that was of a private HBCU that is no longer 
active.
    During the last re-authorization of the Higher Education Act, TMCF 
worked with the HBCU Community to successfully secure several 
programmatic changes including an increase to the total authorized loan 
authority. In light of the ongoing economic challenges faced by 
institutions coupled with the well-documented use of dollars under this 
program, there is room for additional modifications. TMCF encourages 
the committee to authorize an increase from the current $1.1 billion 
loan authority to $3 billion to cover future construction and 
infrastructure projects over the course of the next re-authorization 
period.
    Additionally, TMCF supports the recommendation of the President's 
Advisory Board on HBCUs that urges Congress to permit a lower interest 
rate to approved borrowers who are going to use the loan money to 
construct or expand STEM-
related facilities on their campuses.

Modernize Pell Grants

    For many students attending HBCUs and for the majority of first 
generation college students, the Pell Grant is extremely important. 
TMCF urges the committee to support the following:

    1. Re-invest, authorize and support funding to cover summer Pell. 
The absence of summer Pell creates increased challenges for students to 
complete college within 4 to 6 years. This is especially true for the 
non-traditional students.
    2. Restore the $32,000 income threshold for automatic Pell 
eligibility. Recent changes to Pell have reduced the number of students 
who are eligible for the award and result in fewer students securing 
the funding they need to complete their education.

    As the Nation works to build long-term economic growth, we need to 
find ways to increase college completion rates. Increasing college 
completion rates will require Congress, the higher education sector and 
the private sector to find ways to create more support for first 
generation and low-income families to pay for college. TMCF feels 
strongly that the current Federal dollars allocated toward Pell can be 
maximized more effectively. Finally, TMCF urges the committee to 
continue to find ways to streamline the financial aid process for 
students and families.

Address Challenges With the Administration's Proposed College Rating 
                    System

    TMCF opposes awarding Federal student aid assistance based on the 
college rating system proposed by the Administration. Any new college 
rating system should take into account the significant work HBCUs are 
doing to enroll often under-prepared low-income students and providing 
them with the resources needed to fill academic gaps and then complete 
college.
    Allocation of aid under this new proposed rating system would 
result in harm to low-income students and inequities in the 
distribution of aid.

Delay Cohort Default Rate Sanctions

    In 2008, new cohort default rate policies were instituted. 
Beginning this year, institutions are in jeopardy of losing their title 
IV eligibility if they exceed a 3-year cohort default rate of 30 
percent for 3 consecutive years. TMCF supports a 2-year delay in 
instituting sanctions for HBCUs connected to cohort default rates.

Retain Original Credit Criteria For the Parent PLUS Loan Program

    In October 2011, the Department of Education without notice or 
input from the education community decided to unilaterally change the 
credit criteria used to determine eligibility for Parent PLUS Loans. 
This impacted more than 400,000 students nationwide and at least 28,000 
HBCU students on both public and private HBCU campuses. Our schools 
experienced significant drops in enrollment. Students who were 
persisting with strong academic records were suddenly forced to go home 
with debt and no chance of securing their degree. The impact of these 
changes is still felt today on our campuses.
    TMCF urges the committee to support a return to the former credit 
criteria used to determine Parent PLUS Loan eligibility. According to 
the Department of Education data the Parent PLUS Loan program has the 
lowest default rate of any Federal education loan program, just over 3 
percent for both public and private HBCUs.

    [Whereupon, at 12 p.m., the hearing was adjourned.]

                                   [all]

      
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
